<html>
<title> - [H.A.S.C. NO. 111-58] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-58]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                        BUDGET REQUEST FROM THE

                         DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                              MAY 14, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
52-148                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Jenness Simler, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, May 14, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Navy...........................................................     1

Appendix:

Thursday, May 14, 2009...........................................    43
                              ----------                              

                         THURSDAY, MAY 14, 2009

  FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Conway, Gen. James T., USMC, Commandant of the Marine Corps......     9
Penn, Hon. B.J., Acting Secretary of the Navy....................     5
Roughead, Adm. Gary, USN, Chief of Naval Operations..............     7

                                APPENDIX

Prepared Statements:

    Conway, Gen. James T.........................................    78
    Penn, Hon. B.J...............................................    47
    Roughead, Adm. Gary..........................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   115
    Mr. Skelton..................................................   115

Questions Submitted by Members Post Hearing:

    Mr. Loebsack.................................................   119
    Ms. Shea-Porter..............................................   119
    Mr. Smith....................................................   119
  FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Thursday, May 14, 2009.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today, we meet to receive 
testimony on the fiscal year 2010 budget request for the United 
States Navy and Marine Corps. Appearing before the committee 
are the Honorable B.J. Penn, Acting Secretary of the Navy; 
Admiral Gary Roughead, Chief of Naval Operations (CNO); and 
General James T. Conway, Commandant of the United States Marine 
Corps.
    We welcome you and thank you for being with us today.
    I should note that Secretary Penn is the permanent 
Assistant Secretary for Installations and Environment. We have 
asked him to walk into the proverbial briar patch this morning, 
and we hope you don't mind doing that, sir, and we welcome you.
    Our sea services are this Nation's fast response force, and 
they continue to perform magnificently. Our marines have 
brought a level of security to the Anbar Province of Iraq with 
a balance of might and diplomacy. Our sailors have gone ashore 
in both Iraq and Afghanistan, bringing needed skills to the 
joint force.
    Now we are increasing our force in Afghanistan, a long-
overdue effort. Our Nation has again asked our marines to 
respond, and again they are answering the call. And in the 
midst of the operations in Iraq and Afghanistan, our Navy 
continues a worldwide global presence, as they have always 
done, ready of course to respond to any contingency, be it 
combat operations on the one hand, counter-piracy efforts or 
disaster relief on the other.
    We remain committed to provide our marines and sailors with 
the equipment they need to accomplish the tasks set before 
them. The wear and tear of years of combat operations will 
require a significant investment to reset our forces. However, 
the Navy must, and I repeat must, come to terms with the number 
of ships they need to construct, develop a reasonable plan to 
construct them, and then execute the plan.
    Whatever happened to the 313 Navy goal that we had? You 
must build your ships more efficiently.
    We will not be able to increase the size of our fleet until 
you and your contractors agree on the capital investments 
necessary. I know that you are moving in the right direction. 
So we urge you to continue.
    Some shipbuilding programs are making progress, notably the 
Virginia class submarine program. I would be remiss if I did 
not mention that the new USS Missouri is several weeks ahead of 
schedule and several millions of dollars in savings.
    This committee will closely watch your progress with the 
littoral combat ships (LCS). These vessels are too expensive. 
We must get the program on track.
    And the progress of the Electromagnetic Aircraft Launch 
System, which will be installed in the Ford class carriers, is 
also of great concern. It joins just another list of vital 
programs behind schedule and far over budget.
    Then there is the Strike Fighter shortfall, and yet the 
budget request reduces the procurement of F/A-18 aircraft from 
the projected number submitted last year.
    On the movement of marines to Guam, the heavily encroached 
Marine Corps basing structure in Okinawa represents continued 
risk for a stable Marine Corps presence in the Pacific. Moving 
some forces to Guam is a smart move, but it is expensive, 
costing at least $10 billion, and must be done right. We will 
be looking carefully at this year's request for $673 million. 
Further costs associated with expanded training opportunities 
in Guam are still being evaluated.
    On Navy readiness issues, the Navy today has more officers 
and sailors on the ground as individual augmentees than it has 
at sea in the Central Command (CENTCOM) area of responsibility 
(AOR). We are pleased the Navy has halted its drawdown to 
maintain an end strength that allows for this mission as well 
as improving the manning of the fleet.
    However, the Navy intends to extend the operational life of 
its ships five years or more beyond their designed service life 
at a time when the Navy is experiencing a series of incidents, 
which raises concerns regarding possible systemic problems with 
the Navy's manning, training, and maintenance.
    Moreover, even though U.S. Forces are withdrawing from 
Iraq, Navy operational tempo is expected to remain high because 
demand for the Navy's services is up, including anti-piracy and 
ballistic missile defense (BMD) operations, as well as 
operations in support of Africa Command (AFRICOM) and Pacific 
Command (PACOM), and in Afghanistan and the Arctic.
    Despite the efforts of U.S. and coalition forces in the 
surrounding waters, the issue of piracy off the coast of 
Somalia and in the Gulf of Aden remains. The Navy and Marine 
Corps can date their involvement with these types of conflicts 
through the history of the services.
    As history has shown us, these types of attacks will 
continue until we commit to a clear short- and long-term policy 
that deals with the pirates on the water as well as on the 
shore. While the policy decisions on this issue will reside 
with the President and the broader Department of Defense, there 
is no doubt that naval and Marine forces are critical tools in 
any strategy to counter piracy.
    These are just a few of the challenges facing the Navy and 
the Marine Corps. I am sure we will explore others here today. 
I thank you for being here with us.
    And I might note that this is the birthday for a special 
lady who represents the Marine Corps. Molly Schwab is with us 
today. We wish you a happy birthday and thank you for being 
with us.
    I yield to my colleague, the ranking member from New York, 
John McHugh.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much.
    Mr. Chairman, I am going to try to be as quick as I can. I 
know we have a series of votes coming up here in a few moments. 
But I certainly, gentlemen, want to add my words of welcome to 
you.
    Mr. Secretary, as the distinguished chairman said, thanks 
for stepping into the breach. We hope you don't regret that 
decision too greatly, but we are very honored and pleased that 
you are here.
    Admiral, good to see you again. The last time we saw each 
other we were under the polar ice cap with some of your finest 
on that great submarine, the Annapolis.
    And, Commandant, welcome to you as well. Like so many on 
this committee, I have had a chance to travel with you and your 
good folks to Iraq and Afghanistan, and I know collectively all 
of you are rightfully proud, as we are, of the amazing job the 
men and women in your charge do day in and day out to keep us 
safe. And as the chairman said, please carry our deepest 
appreciation and thanks to them on behalf of not just this 
committee but all Americans in this Nation.
    Yesterday, we had what would diplomatically be described as 
a spirited discussion with Secretary Gates on balance and 
requirements and the way forward. And I know that in an article 
that Secretary Gates had written some time ago he made the 
observation that, as much as the U.S. Navy has shrunk since the 
end of the Cold War, for example, in terms of tonnage, its 
battle fleet is still larger than the next 13 navies combined, 
and a lot of those 13 navies are U.S. allies or partners. That, 
at a very minimum mathematically, is a correct statement.
    But I think it is mindful, and we would be mindful to 
recall as well, though, that this current Navy is as small as 
it has been since the 19th century, and certainly the joint 
maritime strategy released just a year ago emphasizes the 
importance of forward presence. In fact, it talks about that 
particular phrase no fewer than four times.
    Maritime forces have the unique ability to maintain 
persistent presence, with minimal footprint, which we have 
discovered has benefits for both humanitarian as well as combat 
operations, and forward presence can only be translated, as you 
have said repeatedly, Admiral, into both quantity and 
capability.
    Just this past January, you told the Naval War Association 
that, quote, last year I came in telling you that 313 ships 
were the floor that I believe we needed when it comes to the 
capacity of the fleet. While that statement holds true today, 
313 is still the floor when it comes to the size of the fleet 
we need to carry out our maritime strategy.
    It would appear, though, that something may have changed, 
at least in the past few months. Because earlier this week when 
I asked if 313 ships were still the minimum threshold for the 
fleet, Rear Admiral Blake told reporters, quote, as it stands 
right now, what you are going to have is the Quadrennial 
Defense Review (QDR), and one of the significant pieces in the 
QDR is force structure. So that was the last number that was 
put out. Those discussions will take place with its leadership 
later this summer as to what the right number is.
    And Admiral and Commandant, what new analysis or new 
strategy may have been completed that would suggest 313 may not 
now be needed if that is the case?
    Likewise, there has been a lot of discussion about 
acquisition reform. This committee, under the leadership of our 
very able chairman, passed unanimously on the House bill 
yesterday an acquisition reform bill that we are all very proud 
of and indebted to Mr. Andrews and Mr. Conaway.
    And, clearly, we need to save costs in shipbuilding. This 
budget requests three additional littoral combat ships, despite 
the lack of an acquisition strategy and a complete lack of real 
transparency regarding the costs in the last two ships awarded.
    As well, this budget extends aircraft carrier construction, 
even though this will lead to inefficiencies that will increase 
the total cost of these expensive platforms.
    And we have also made some pretty darn expensive decisions 
with respect to destroyer construction. Apparently, from a 
capability perspective, the Navy could make do with one DDG-
1000 but will support the construction through in consideration 
of industrial base issues.
    I understand that reasoning. I truly do. But given that the 
Navy intends to return DDG-51 construction to add both more to 
Grumman and Bath Iron Works (BIW), how much more will taxpayers 
eventually spend to resume construction of DDG-51s at BIW after 
a several-year hiatus?
    At the same time, there is balance to be struck between new 
construction and funding maintenance. I won't go into the 
details of the hundreds of millions of dollars of shortfall 
that the Navy has been experiencing amongst its fleet, but 
obviously, that is an area of some concern.
    But those balance issues are not just limited to 
shipbuilding. The chairman mentioned Strike Fighter aircraft, 
and for years your Navy and Marine Corps have been briefing 
this committee about shortfalls there, and the Department of 
the Navy currently has a fiscal year 2009 Strike Fighter 
inventory shortfall of about 110 aircraft against a resource 
requirement of 390 aircraft and predicts a peak Strike Fighter 
shortfall of 212 fighter aircraft in fiscal year 2018. That is 
eight carrier air wings worth of aircraft, and it rests on the 
dubious assumption that the Joint Strike Fighter delivers on 
time.
    So we have got some serious concerns and questions as well 
in that area.
    With respect to the Marine Corps, finally, Secretary Gates 
has put off making a decision on the expeditionary fighting 
vehicle program until the completion of the QDR; and, frankly, 
I commend the Secretary for not rushing to judgment in regards 
to the Marine Corps forcible entry requirement. I would add 
that as part of this discussion it is important to keep in mind 
that amphibious assault doesn't necessarily mean another 
Normandy-like invasion. Amphibious assault can be a smaller 
action, say off the coast of Somalia to provide humanitarian 
assistance or evacuation procedures off the coast of West 
Africa.
    And, General Conway, the Marine Corps has looked at the 
requirements for joint forcible entry for some time, and the 
QDR--I should say the Quadrennial Roles and Missions Review--
did not dispute the Corps' responsibility for this capability. 
Yet these requirements will be reviewed as a part of the QDR.
    I realize you can't talk about the QDR since it is just 
getting started, but if you could share any perspective you 
might have on the need for amphibious assault and the direction 
you believe the Marine Corps is headed, we would be most 
grateful.
    Finally, I personally would like to hear your assessment on 
how the V-22 performed. This committee stepped forward and made 
some decisions that weren't always popular. I have been on that 
aircraft in several visits to Iraq. It impressed the heck out 
of me, but I would like to hear from an operational perspective 
how you felt it performed for your men and women in theater.
    But, again, thank you all, gentlemen, for your service. We 
look forward to your testimony and a greater understanding of 
the difficult decisions facing you in your leadership roles, 
and we thank you for taking on that challenge.
    With that, Mr. Chairman, I yield back the balance.
    The Chairman. I thank the gentleman from New York.
    Secretary Penn.

   STATEMENT OF HON. B.J. PENN, ACTING SECRETARY OF THE NAVY

    Secretary Penn. Chairman Skelton, Congressman McHugh, 
distinguished members of the committee, it is truly an honor to 
appear before you on behalf of the more than 800,000 men and 
women of the United States Navy and Marine Corps. I have 
submitted written testimony, and I ask that it be included in 
the record.
    The Chairman. Without objection.
    Secretary Penn. Two months ago, I assumed the 
responsibilities as Acting Secretary of the Navy. Since that 
time, I have had the unique pleasure of meeting more of our 
troops and focusing the Department of the Navy as a whole, 
rather than simply upon the world of installations and the 
environment. This experience has left me with two lasting 
impressions.
    First, we have phenomenal people. Our active duty, reserve 
and civilian personnel are dedicated and impressive. Today, our 
sailors, marines and civilians are deployed, providing the 
entire spectrum of action from combat operations in the 
mountains of Afghanistan to humanitarian assistance in Africa. 
The Navy has nearly 10,000 individual augmentees and over 6,000 
mobilized reservists deployed on the ground around the world in 
support of overseas contingency operations. Seventy-six percent 
of our ships and over 50 percent of our attack submarines are 
underway.
    At the same time, more than 25,000 marines are deployed in 
support of Operations Iraqi Freedom (OIF) and Enduring Freedom 
(OEF). Nearly 5,700 marines are deployed to various regions 
throughout Afghanistan, where they face an enemy and operating 
environment that is different than that in Iraq. Our marines 
are adapting superbly.
    In short, for our combatant commanders and our Nation, no 
force is as capable, flexible, and ready to deploy than your 
sailors and marines.
    The second impression I have been left with is how 
instrumental your help has been in providing our Navy and 
Marine Corps the capabilities our people need to perform their 
demanding duties. On behalf of all our men and women, I thank 
you for your continued support.
    Today, I am here to discuss the budget for the Department 
of the Navy. This budget reflects our view of the best balance 
between our most important resource, our people, and our need 
to maintain the current force while preparing for the future 
through careful investment in science and technology and in 
military construction. We have invested prudently in the most 
important programs while deferring investment in others. Our 
reviews, in conjunction with the Department of Defense's 
Quadrennial Defense Review, will inform our investment 
decisions in future years.
    Our budget request demonstrates our sustained commitment to 
our Navy and Marine Corps family by investing in the 
infrastructure, housing, and family programs that make our 
Department an employer of choice. Our budget also provides 
continual support for both medical and nonmedical care for all 
seriously wounded, ill, and injured service members. Our 
gratitude to the dedication of our service members can best be 
demonstrated in the compassion and care we provide to them and 
their families for their service and sacrifice.
    A single event this week demonstrated tragically the 
devastating effect of combat stress on the force. Navy 
commander Charles Springle of Wilmington, North Carolina, died 
this past Monday at the combat stress clinic where he served 
with the Army in Camp Liberty in Iraq. The thoughts and prayers 
of our Navy and Marine Corps family and our entire Nation go 
out to his wife and family in this time of great loss.
    His tragic death serves as reminder of our unending 
commitment to promote psychological resilience and health among 
marines, sailors and their families. A resilient warrior knows 
there is no shame in seeking help. We are committed to removing 
the social stigma of seeking help as we remember the sacrifice 
of Commander Springle.
    Finally, the Department of the Navy budget reflects our 
commitment to pursue acquisition reform and cost control 
measures as responsible stewards of the taxpayers' resources 
and to relieve the stress on our procurement accounts. We 
support your efforts to promote acquisition reform and look 
forward to implementing these measures to produce the best 
results for our country.
    Once again, on behalf of our sailors, marines, civilian 
employees and their families, I thank you for all you have 
done. I ask for your continued support as we try to balance the 
resources necessary to defend our great Nation. I look forward 
to addressing your questions, sir.
    The Chairman. Mr. Secretary, thank you.
    [The prepared statement of Secretary Penn can be found in 
the Appendix on page 47.]
    The Chairman. Admiral Roughead.

STATEMENT OF ADM. GARY ROUGHEAD, USN, CHIEF OF NAVAL OPERATIONS

    Admiral Roughead. Chairman Skelton, Congressman McHugh, 
distinguished members of the committee, it is indeed an honor 
to appear before you today representing the more than 600,000 
sailors and civilians and their families of the United States 
Navy. I ask that my prepared remarks be submitted for the 
record.
    The Chairman. Without objection.
    Admiral Roughead. Our sailors and Navy civilians are making 
a difference at sea, in the air, and on the ground in support 
of operations in the Central Command and around the globe. We 
have 40,000 sailors on station around the world as part of our 
ever-deployed Navy, the value of which was once again 
demonstrated by the rescue of Captain Richard Phillips of 
Maersk Alabama, a few weeks ago.
    Our Navy is more versatile and agile than it has ever been. 
We have more than 13,000 sailors on the ground in Central 
Command supporting Navy, Combatant Commander, and Army and 
Marine Corps requirements. That contribution is unique and is 
making a difference, as reflected in the service of Commander 
Springle who lost his life just this past week.
    I appreciate greatly your continued support to our Navy as 
we sail in defense of our Nation's global interests and 
responsibilities. As CNO, I focus on current operations, the 
future fleet, and our people to ensure that we are a properly 
balanced Navy, ready to answer the call now and in the decades 
to come.
    Our fiscal year 2010 budget aligns our plans with the 
course our maritime strategy set a year ago. However, we are 
progressing at an adjusted pace. Our risk is moderate today, 
trending toward significant in the future, because of 
challenges associated with fleet capacity, increasing 
operational requirements, and growing manpower, maintenance, 
and infrastructure costs.
    As I articulated last year, our Navy must have a stable 
shipbuilding program that provides the right capability and 
capacity while preserving our Nation's industrial base. The 
balance among capability, capacity, affordability, and 
executability in our procurement plans, however, is not 
optimal. We require additional capacity to meet Combatant 
Commander demands.
    Our Navy's operational tempo over the past year reaffirms 
our need for necessary capacity and a minimum of 313 ships with 
a mix of capabilities that includes more ballistic missile 
defense, irregular warfare, and open ocean anti-submarine 
warfare capabilities. Accordingly, this year's restart of the 
DDG-51, the truncation of the DDG-1000, and three littoral 
combat ships puts us on the right path.
    The Navy remains committed to a force of 11 carriers for 
the next 3 decades. However, to avoid a bill of $2.8 billion 
and significant technical risks, we seek legislative relief to 
decommission and take USS Enterprise out of service, service 
that has spanned 47 years and everything from the Cuban Missile 
Crisis to Vietnam, the Balkans, Afghanistan, and 2 conflicts in 
Iraq.
    Along with our ships, we are addressing our aviation by 
investing in both new and proven technologies. Timely delivery 
of the Joint Strike Fighter is needed as we approach a 
projected decrease in the number of carrier-capable Strike 
Fighters, which is due to the continued high pace of operations 
of our aging F/A-18 A-Ds.
    I have focused on our need to control procurement and total 
ownership costs. We are addressing these costs by maturing new 
ship designs before commencing production; controlling 
requirements throughout the process; pursuing common hull 
forms, common components, and proven designs; and, finally, 
repeating builds of ships and aircraft to permit longer 
production runs and lower construction costs.
    Our Navy is operating at its highest levels in recent 
years; and while we remain ready and capable, we are stretched 
in our ability to meet additional operational demands while 
balancing our obligation to our people and to building the 
future fleet. The Fleet Response Plan has provided a strong 
mechanism to keep our force ready, and our base budget, 
augmented with contingency funding, provides the means to meet 
the increased operational requirements of the Combatant 
Commanders while remaining the Nation's strategic reserve.
    Our talented and dedicated sailors and Navy civilians are 
what make possible all that we do. I am committed to providing 
the necessary resources and shaping our personnel policies to 
ensure our people and their families are personally and 
professionally supported and fulfilled. While reducing end 
strength, we have increased operational availability, supported 
new missions for the joint force, and introduced the maritime 
strategy. To minimize stress on the force and meet increased 
demands with minimal risk, we are stabilizing the force this 
year. Navy continues to provide support to all sailors and 
their families through a continuum of care that covers all 
aspects of individual medical, physical, psychological, and 
family readiness. We have provided additional care managers and 
ambulatory care clinics for our 1,800 wounded warriors and 
their families. Our goal is reintegrating the individual sailor 
with his or her command, family, and community.
    Achieving the right balance within and across my priorities 
is critical as we meet the challenges of today and prepare for 
those of tomorrow. We have seen more challenging times, and we 
as a Navy and as a Nation have emerged prosperous, secure, and 
free. I ask Congress to fully support our fiscal year 2010 
budget and identified priorities.
    Thank you for your continued support and commitment to our 
Navy and for all you do to make the United States Navy a force 
for good today and in the future, and I look forward to your 
questions.
    The Chairman. Admiral, we thank you.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 59.]
    The Chairman. We just learned that there are five votes 
that have just begun: one 15-minute vote, two 5-minute votes, 
10 minutes of debate on a motion to recommit, and then a 10-
minute vote and then a 5-minute vote, but we will continue as 
far as we can.
    General Conway, we will go to you, sir, and maybe we can 
also get a question or two in. But let's go ahead, sir.

  STATEMENT OF GEN. JAMES T. CONWAY, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Conway. Chairman Skelton, Congressman McHugh, and 
distinguished members of the House Armed Services Committee, 
thank you for the opportunity to report to you on the posture 
of your Marine Corps. My pledge, as always, is to provide you 
with a candid and honest assessment, and it is in that spirit 
that I appear before you today.
    Since testimony before your committee last year, progress 
in the al Anbar Province of Iraq continues to be significant. 
Indeed, our Marines are in the early stages of the most long-
awaited phase of operations, the reset of our equipment and 
redeployment of the force.
    In February, we had a change of command of the multi-
national forces west in Anbar Province. The commander of the 
multi-national corps, who was present for the event, commented 
that he believed this will be the last rotation of marines in 
Iraq. We tend to agree.
    Having recently returned from a trip in theater, I am 
pleased to report to you that the magnificent performance of 
our marines and sailors in al Anbar continues across a whole 
spectrum of tasks and responsibilities.
    In Afghanistan, however, we have substantially another 
story, as in 2009 the Taliban have again increased their 
activity. The Second Marine Expeditionary Brigade (MEB), a 
force that will number more than 10,000 marines and sailors, is 
en route and will be ready for tasking by the end of this 
month. The Second MEB is deploying as a Marine Air Ground Task 
Force. They will operate under Regional Command South (RC-
South), primarily in Helmand Province, where 93 percent of the 
country's opium is harvested and where the Taliban have been 
most active. This part of the country also includes a wide-open 
stretch of the border with Pakistan, where drugs and fighters 
flow without interdiction.
    That said, we consider the operating environment in 
Afghanistan as well suited to our expeditionary ethos of being 
fast, austere, and lethal, with emphasis on the austere.
    As our numbers grow in Afghanistan, marines and their 
families have refocused their resolve to yet another crisis 
area. There are many challenges ahead, but your marines 
understand the effects of their operations will make this 
country safer.
    We are maintaining an effort to get every marine to the 
fight, and today 73 percent of your Marine Corps has done so. 
Yet our force remains resilient in spite of an average 
deployment to dwell tempo that is somewhat better than one to 
one in most occupational specialties. For instance, we believe 
retention is a great indicator of the morale of our force and 
the support of our families. Although we are only halfway 
through the fiscal year, we have already met our annual 
reenlistment goals for our first-term marines and for our 
career force.
    Our growth in the active component by 27,000 marines has 
proceeded two-and-a-half years ahead of schedule. We have 
reached the level of 202,000 marines and have found it 
necessary to throttle back our recruiting efforts.
    We have not changed our standards. Indeed, more than 96 
percent of the young men and women who enlisted in the Marine 
Corps during fiscal year 2008 had earned their high school 
diploma, a rate that exceeded the standard for the Department 
of Defense (DOD) at 90 percent and our own self-imposed higher 
standard of 95 percent.
    We attribute our accelerated growth to four factors: 
quality of recruiting, exceptional retention levels, reduced 
attrition, and, not least, a great young generation of 
Americans who wish to serve their country in wartime.
    We are deeply committed to the care and welfare of our 
wounded and their families. Our Wounded Warrior Regiment 
reflects this commitment, through all phases of recovery. To 
assist in the rehabilitation and transition of our wounded, 
injured, or ill and their families, we have a Wounded Warrior 
Battalion on both coasts, at Camp Lejeune and Camp Pendleton. 
The headquarters of our Wounded Warrior Regiment is in 
Quantico.
    I would like to thank those of you on the committee who 
have set aside your personal time to visit our wounded warriors 
across the globe.
    The Marine Corps we are shaping for the future is a 
balanced force, equally adept at irregular warfare and 
contingency operations on the low end, yet ready to operate as 
a key element of the joint force in a major contingency. We 
believe we need to be able to go both ways, to be a, quote, 
two-fisted fighter. Our equipment and major programs reflect 
that commitment to be flexible in the face of uncertainty. That 
is to say, 100 percent of Marine Corps procurement can be 
employed in both hybrid conflict or major combat operations. 
Moreover, we seek to remain good stewards of the resources 
provided by Congress through innovative adaptation of our 
equipment to both defeat the enemy and counter the environment.
    On behalf of your Marine Corps, I extend my gratitude for 
your enduring support and that of the American people. Our 
great young patriots have performed magnificently and have 
written their own page in history. They know as they go into 
harm's way that our country is behind them. We pledge to spend 
wisely every dollar you generously provide in ways that 
contribute to the defense of this great land.
    Thank you once again for the opportunity to report to you 
today, and, sir, I look forward to your questions.
    The Chairman. General, thank you.
    [The prepared statement of General Conway can be found in 
the Appendix on page 78.]
    The Chairman. We will see if we can get a few questions in 
before we break for these votes.
    Admiral, early this morning, Congressman Solomon Ortiz and 
I were musing over the Ronald Reagan aim of having a 600-ship 
Navy. You were probably just an ensign at the time--that was a 
day or two ago--but that was a goal and a serious attempt to do 
so. You have a goal, as you stated a few moments ago, of 313 
ships. How many do we have right now?
    Admiral Roughead. Two hundred and eighty-three, Mr. 
Chairman.
    The Chairman. Two hundred and eighty-three?
    Admiral Roughead. Yes, sir.
    The Chairman. What's the lowest we have had in the last 10 
years?
    Admiral Roughead. I would say 279, but I will take that for 
the record. But 279 is where I would say we are. This is the 
smallest fleet that we have had since 1960.
    [The information referred to can be found in the Appendix 
on page 115.]
    The Chairman. Two hundred and eighty-three right now?
    Admiral Roughead. Yes, sir.
    The Chairman. And your goal is still 213?
    Admiral Roughead. Three hundred and thirteen.
    The Chairman. Excuse me, 313.
    Admiral Roughead. As a floor, I might add. The minimum is 
what I believe we need.
    The Chairman. You will take more than 313?
    Admiral Roughead. The floor I would say right now is 313, 
yes, sir.
    The Chairman. And how many are you retiring?
    Admiral Roughead. I will get back on the exact number for 
this year, but it will be important for us to minimize our 
retirements by fully funding our maintenance and putting 
those----
    The Chairman. I want to get a number if I can. Does anyone 
on your staff know how many you are retiring?
    Admiral Roughead. Yes, sir. I don't have that number, sir, 
but I will get that for you.
    [The information referred to can be found in the Appendix 
on page 115.]
    The Chairman. My staff says how many? My staff says five. 
Does that sound correct?
    Admiral Roughead. That sounds like a good number, yes, sir.
    The Chairman. And how many are you requesting?
    Admiral Roughead. In this year's budget, we have eight, in 
2010; and we have advanced procurement for seven in this 
budget.
    The Chairman. That is a pretty slow climb to 313; am I 
correct?
    Admiral Roughead. The eight ships is not the largest number 
I would like to see, no, sir.
    The Chairman. You have a USS Enterprise challenge coming 
up. The law says we should maintain 11 operational aircraft 
carriers, and with that retirement and before the Ford comes 
on, there will be a gap of 10 aircraft carriers. Am I correct?
    Admiral Roughead. That is correct, yes, sir.
    The Chairman. And then there is also the challenge of 
enough Strike Fighters to man all of the aircraft carriers. And 
I know those numbers are somewhere out there, but I heard 
something somewhat disturbing that we can get into a little bit 
later, but am I correct on that?
    Admiral Roughead. Yes, sir. As our older Hornets age out, 
how we address that issue of the adequate number of Strike 
Fighter is writ large for the Department of Defense. But, for 
me, my interest is in those that are capable of operating on 
and off of our aircraft carriers, and amphibious ships is key 
and how we move forward with that. Whether it is through 
extension or other options is yet to be addressed, and I would 
say that key to all of this is the timely delivery of the Joint 
Strike Fighter to the Navy in 2015. That is an absolute 
critical addition to our fleet for more than just number 
purposes. It is capability as well.
    The Chairman. As I understand, we are supposed to have some 
13 Joint Strike Fighters today. You know, in the research and 
development (R&D) phase, we only have three; is that correct?
    Admiral Roughead. The exact number of what is in there, I 
will get back to you, Mr. Chairman. Because there is some Air 
Force variance, Marine Corps variance. We have not yet begun to 
get into our variant, which is the last to be delivered.
    [The information referred to can be found in the Appendix 
on page 115.]
    The Chairman. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Let's just probe that a little bit further, Admiral.
    Now, I will certainly state for the record I fully 
recognize that you come here in support of this budget.
    Admiral Roughead. Absolutely, yes, sir.
    Mr. McHugh. And that is natural, and I don't for a moment 
suggest you shouldn't. But I mentioned yesterday to the 
Secretary of Defense I am concerned about the scope of some of 
these individual decisions absent what we would call regular 
order, QDR, particularly, and let me just give you a couple of 
examples there.
    The decision has been made that the Air Force and the Navy 
are going to require fewer Strike Fighter aircraft to 
accomplish their missions. That is certainly an effective 
outcome of some of the choices that have been made on the 
Strike Fighter aircraft.
    At the same time, on the other hand, we have got a proposal 
in here that will call for the replacement of the Ohio class 
ballistic missile submarine and the Ticonderoga class cruiser. 
Those aren't yet validated requirements. They may be absolutely 
appropriate decisions, but they are not validated requirements.
    So, forgetting about the budget for a moment, I would like 
your personal opinion. Is funding over a half a billion dollars 
in R&D for the DDG-1000 program, which is an ongoing program in 
production that is going to be truncated at three ships, is 
that more important than, say, making a different choice of 
procuring nine additional F/A-18 Super Hornets, which is 
consistent with last year's budget?
    That is a tough choice. I am not saying which is right and 
which is wrong. I am curious.
    Admiral Roughead. Yes, sir. I think the choice is not as 
tough as it may appear on the surface. Because even though that 
money for the DDG-1000 is research and development and that may 
conjure up a particular forward look that we are aspiring to, 
that money completes the computer software for the computing 
environment of the DDG-1000. So even though it is R&D money, if 
that computing software is not developed, that is the combat 
capability of that ship and also is money that is in support of 
the advance combat capability in the new aircraft carrier that 
is coming along. So even though it is R&D, it really is going 
to build the capability of the DDG-1000, and that must be 
resident in the first DDG-1000.
    Mr. McHugh. Okay.
    The Chairman. If you will let me interrupt, Mr. McHugh, to 
continue to your questioning after we continue voting.
    Thank you. We will be in recess.
    [Recess.]
    The Chairman. The votes took longer than we had 
anticipated.
    Mr. McHugh was in the middle of his inquiries, and he will 
be delayed, but we will proceed from this.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I appreciate, if it is 
okay, if I can sit way down here. Thank you, sir.
    Admiral Roughead, sir, DOD announced the final decision on 
whether to permanently home port an aircraft carrier at Mayport 
will be made during the 2010 QDR. And will the QDR in fact be 
able to make this in time for the fiscal year 2011 submission?
    Admiral Roughead. Sir, I believe that the Secretary and the 
Deputy Secretary of Defense have committed to a review of the 
disposition of our aircraft carriers in each case, and I am 
confident that those decisions will be made in the Quadrennial 
Defense Review.
    Mr. Miller. In time for the fiscal year 2011 budget cycle?
    Admiral Roughead. I believe that the decision will not 
impact any plan should the outcome be to put a carrier there 
because the period of time that would be required to prepare 
Mayport spans a couple of years. So I believe that the decision 
that would be made in the QDR will be adequate for anything 
that would have to be done in Mayport.
    Mr. Miller. Thank you, sir.
    And also a question to anybody that would choose to answer 
in regards to Navy and Marine Corps shortage of doctors and 
nurses because of our op tempo, the shortage impacts both for 
deployed sailors and marines as well as their families back 
home. What are our plans to increase the numbers of Navy 
doctors and nurses and other medical personnel?
    Admiral Roughead. I will comment on the plan and let 
General Conway comment.
    As the Marine Corps is growing its force, we have increased 
the number of medical personnel commensurate with that growth, 
and we are on the path to provide the required numbers for the 
Marine Corps which are in the hundreds of additional medical 
personnel.
    And I will let General Conway talk about the adequacy of 
medical support for his troops.
    General Conway. Sir, it is marvelous forward both in Iraq 
and Afghanistan, and we understand that is the Navy emphasis, 
as well it should be. What has happened as a result of that, of 
course, is somewhat what you cite, and that is that there is 
then a shortfall at some of the hospitals and clinics in some 
of our bases and stations. I do believe the Navy is attempting 
to contract to satisfy some of those shortfalls.
    It is easier to contract someone to live in San Diego than 
it is in Havelock, North Carolina, and so I think that is where 
we see our biggest concerns right now as we go about our town 
hall discussions with families and so forth, is trying to make 
sure they have got sufficient care and, more importantly, 
specialized care that prevents them from having to drive great 
distances that TRICARE would otherwise provide for.
    Mr. Miller. Sticking with the medical issue, we have all 
talked a lot about electronic medical records in recent 
hearings. Navy medical personnel have testified to the 
challenges of the Armed Forces Health Longitudinal Technology 
Application, or HLTA. What is our plan with the Navy in regards 
to improving the effectiveness of electronic medical records in 
the future?
    Secretary Penn. We are still doing a complete analysis of 
the records. There is a lot that has to be done. The Privacy 
Act and other things, that just requires that we go into it 
with our eyes wide open. There would be some secondary effects, 
and we want to make sure they are addressed up front.
    Mr. Miller. Thank you, Mr. Chairman. I yield back.
    The Chairman. Let me ask, before I call Mr. Ortiz, General, 
as you know, several of us visited Okinawa and Guam recently 
regarding the proposal of moving some 8,000 marines from 
Okinawa to Guam. And shortly before we made our visits, the 
Secretary of State visited Japan, and my understanding is she 
signed the agreement again. And could you in 25 words or less 
bring us to date on where the proposal is and what needs to be 
done in the immediate future?
    General Conway. Sir, if I can--and I am afraid I might have 
to take a few more than 25 words. But I want to say in general 
terms, because there have been articles that may have presented 
otherwise, the Marine Corps is in favor of the move to Guam. 
There are issues associated with that move, but I have the 
personal assurance of the Under Secretary of Defense for policy 
that she is going to work with us directly to solve those 
concerns.
    Currently, sir, the Japanese government will be voting soon 
on a portion of their allocation for the funding that is 
required. In the meantime, we are going forward with an EIS, 
Environmental Impact Study, on Guam to determine what training 
can take place there. We think we have a pretty good feel for 
that at this point, just because of the availability of 
training areas, and Guam is not going to satisfy the entirety 
of the training concerns that we have there. So at the same 
time that the EIS is under way for Guam, we are looking for an 
EIS on other portions of islands in the area.
    The Chairman. That is my next question. You are looking 
for--is there a formal request or a requirement for looking at 
the other nearby islands, particularly Marianas?
    General Conway. Sir, we have made known our requirement to 
be able to train the types of troops that we think we are going 
to put on Guam, and we believe that we can gain proper access 
to those other islands, although they are some miles distant 
from Guam, that we can satisfy the training requirements to 
keep those troops viable.
    Secretary Penn. There is an issue, as you know, with the 
EIS. If we start one and try to add to it, that is called 
segmenting.
    The Chairman. It is called what?
    Secretary Penn. Segmenting, and then we have to start the 
entire process over again.
    The Chairman. Oh, you are kidding?
    Secretary Penn. We want to complete the Agreed 
Implementation Plan Environmental Impact Statement (AIP EIS), 
and we have been working with the Marine Corps to come up with 
an entire training area, and that would be the EIS for all the 
training on the outer islands.
    The Chairman. Okay, thank you.
    John McHugh, the bells cut you off, and we return to you.
    Mr. McHugh. I have been cut off by worse, Mr. Chairman. 
Thank you, though, and, gentlemen, I appreciate, as we all do, 
your patience.
    Admiral, you and I were speaking before we left and I posed 
one philosophical or theoretical change to you with respect to 
DDG-1000, the $500 million on R&D, which you answered. There 
are some other components to that. I am not sure I will get a 
chance to pursue those.
    Let me pose another question for you on a similar train. On 
R&D we have got about $800 million for the replacement of the 
Ohio class submarine and the Ticonderoga cruiser development as 
I spoke earlier, and that is not yet a validated requirement. 
Again, it may be the right thing to do, but the question I 
would ask again, in terms of the fact that any budget is a 
chain of choices, would we not spend that $800 million of R&D 
on those two unvalidated as yet requirement platforms for, say, 
addressing the strike fighter shortfall on the eleventh 
amphibious transport ship?
    Admiral Roughead. Mr. McHugh, on the sea-based strategic 
deterrent and the research and development money that we are 
putting into that, as we look back on the Ohio class SSBN that 
we have, we are about at the same time where we had to begin 
development of that ship, and the investments that we are 
making in research and development for a sea-based strategic 
deterrent are the initial work on a propulsion plant and a 
missile compartment. It is not an entire ship but just on those 
two things.
    Because I believe that, as we have seen since the inception 
of the sea-based strategic deterrent, it remains a key part of 
our national deterrent, and, therefore, we believe, given the 
length of time that it requires to develop this type of a 
submarine, we are in that window and we believe that the 
investment is prudent at that point.
    Mr. McHugh. How do you respond to the issue these aren't 
validated requirements? I mean, they may well be in the near 
future based on future QDR, et cetera, but I mean it is a valid 
point of discussion.
    Admiral Roughead. Yes, sir. The way I would respond is, 
even though the requirements may not have been validated by the 
posture review, the centrality of the sea-based strategic 
deterrent and the fact that submarines cannot be extended as 
easily as some of our surface ships may be, we believe it is 
prudent to begin to make the investments so that as we move 
through the Nuclear Posture Review (NPR) we will not risk the 
continuation of that important deterrent.
    Mr. McHugh. Have there been--and this was a point of 
discussion yesterday with the Secretary, and I think he failed 
to totally grasp the central point they were trying to make, 
not taking issue necessarily with some of the major issue 
decisions he made but the lack of availability to some of the 
analyses that I would imagine I would hope certainly went into 
these decisions and this someone as well. Can you help us 
understand what the analysis might have been or is there an 
available document that we can look at that makes that kind of 
choice?
    Admiral Roughead. Yes, sir. For example, in the case of the 
DDG-1000, that ship has its genesis in 1992. There is more 
analysis on DDG-1000 than I think we could sift through for the 
rest of this fiscal year.
    So when I came in and made the recommendation with regard 
to the DDG-1000, I had the benefit of being able to look at 
campaign analysis and other attributes of the ship, and I felt 
very comfortable with that, with the demands from combatant 
commanders in being able to put forward a recommendation to the 
Secretary of the Navy and then to the Secretary of Defense that 
resulted in the truncation and then the restart of the DDG-51.
    With regard to the sea-based strategic deterrent, based on 
what we know about our submarine development programs, we are 
in the window where we need to begin that process of developing 
that replacement capability. So with regard to the refinement 
that will come in the review that will get at the question of 
force structure and the particulars that may apply to the 
numbers of those submarines and missile inventories, I think we 
can get to that, but the work of designing this replacement 
submarine we know we have to get on with it.
    Mr. McHugh. So with respect to the latter two, the Ohio 
class particularly but also on the Ticonderoga class cruiser, 
those were your recommendations.
    Admiral Roughead. Yes, sir. We get going with that program 
because of the importance that this Nation places on this 
nuclear deterrent.
    Mr. McHugh. Than you, Admiral.
    Commandant, tell me a little bit about V-22.
    General Conway. Sir, V-22 has had a checkered past, but I 
have to say that we accepted some risk putting it into combat 
as soon as it was ready, and we have been very well pleased 
with the performance of the aircraft ever since.
    We have finished now three rotations in Iraq. We have seen 
that aircraft demonstrate what we knew to be its capability in 
terms of flying farther, faster, higher, and being able to 
carry a lot more than the aircraft it is replacing, principally 
the CH-46.
    In the words of one of my commanders, it turned the Anbar 
Province from a state the size of Texas into a state the size 
of Rhode Island with the speed and capacity of the aircraft.
    We have had, speaking frankly, some reliability issues in 
terms of the availability of the aircraft, but I would suggest 
not greater than other new aircraft, especially new aircraft 
that were tossed into such an austere environment. So we are 
working those issues, and we are very optimistic about the 
future of this aircraft for us for decades to come.
    Mr. McHugh. Okay. Thank you very much.
    Gentlemen, again, thank you for your leadership and thank 
you most of all for bringing together under your commands some 
amazing men and women of the United States Marine Corps, United 
States Navy. We are all in your debt.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    First of all, thank you for your service. We really 
appreciate your service and your commitment to our country and 
to keep it safe.
    Admiral, you recently determined that in-service 
inspections should be classified rather than available to the 
public. Having thoroughly reviewed one of these inspection 
reports, I was alarmed at the detail available in the public 
realm that could potentially be utilized by our enemy, by our 
adversaries, and thus support your decision.
    However, I want to ensure that the committee staff and its 
members, of course, would receive access to information in 
order to effectively do our job. Please elaborate on your 
decision to classify these inspection reports and how you will 
ensure the committee will be able to have, not only the member 
but the committee as well, all this information. Can you 
elaborate a little bit on that?
    Admiral Roughead. Yes, sir, and thank you for that 
question.
    The reports of the inspection and survey team is something 
that we do to ourselves to assess ourselves. This is something 
that we do to determine our programs, our maintenance, the 
adequacy of designs, the sufficiency of the systems that we put 
on our ships. It is a very frank, it is a very detailed 
process. The report that is produced from that can shed 
significant light on readiness, design. It can also provide 
insight into vulnerabilities of systems and of ships and 
airplanes themselves.
    And in my mind, having that information available to 
someone who wants to see where we may have vulnerabilities is 
not a prudent thing to do, and, for that reason, I directed 
that we again classify them. They had been classified up until 
I believe it was about 2001.
    With that said, it is in no way an attempt to not make 
information available to this committee and other committees 
and members who may be interested in that, and I commit to you 
that at any time when we have the report compiled, because it 
is something we do every year, that we will bring it to you. I 
will do that proactively, and we will make that information 
available to the members and to the staff.
    And, moreover, what I will also like to be able to do is to 
show where we believe the root causes of some of the 
deficiencies that we discover may be. I welcome that 
opportunity, and I make that commitment to you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    Another question that I have is that the use of sailors to 
augment certain Central Command (CENTCOM) requirements is not 
expected to decrease even as our course as we withdraw from 
Iraq--because now we see some of the Navy personnel doing our 
groundwork. What impact does the augmentation mission have on 
the Navy's ability to perform its core mission? Because you are 
taking Navy people that may be in other missions--they were on 
a ship. Now they are in Iraq or Afghanistan, boots on the 
ground. Is this causing a problem?
    Because we have had some complaints about the maintenance 
of the vessels and this is why they deteriorate, and I just 
want to be sure.
    And then there was a report that came out the other day 
about health services provided to our troops, where a lot of 
the contractors are utilizing the health services that I guess 
we should give our troops first choice to. They are in harm's 
way.
    But these two questions maybe you can elaborate a little 
bit.
    Admiral Roughead. Yes, sir, I could not be more proud of 
the role and the contribution that our sailors are making to 
the fight in Iraq and Afghanistan. That contribution is going 
to continue. And in fact, I believe our numbers will increase 
as we increase our forces in Afghanistan. What our sailors 
bring are some unique skills and talents and capabilities that 
are a great addition to the joint force. And when I visit our 
sailors, whether they are performing duties on staffs, whether 
it is our construction battalions, intelligence officers, those 
who are leading and being part of the provincial reconstruction 
teams (PRTs), they are making a difference, and I am very, very 
proud of them.
    We have put in place a different way of assigning sailors. 
We have increased our oversight of their training. We have 
increased our ability to provide counseling to the increased 
number of sailors that we have deployed and their families, in 
particular, their families. We have increased our ability to 
maintain track of where the families may be when a sailor 
deploys individually, their family may go back to their 
hometown. We have put in place all of those.
    The other thing that has become clear as we have continued 
our support to the ground forces is those sailors who go and do 
this have a higher probability of promotion than those who do 
not. And accordingly, that makes it a very attractive 
assignment.
    We monitor the readiness of the rest of the force very 
carefully. We have not had to adjust our deployment schedules. 
In fact, we have increased the level of activity. For example, 
the Africa partnership station in Africa, the hospital ship to 
South America that is down there now, a ship that is about 
ready to leave to go into the South Pacific to do humanitarian 
work, and we are able to do all of that, and we have not missed 
a commitment in the United States Navy. And I cannot be more 
proud of the contribution our sailors are making.
    Mr. Ortiz. I know my time is up. Maybe my next question 
will be to the next panel, the Army, about health care for our 
troops on the ground, especially the Army and the Marine 
troops. I saw where the contractors were using the facilities 
and the doctors and the nurses to take care of the contractors. 
And I don't know what kind of impact this is having on our 
troops. But I know my time is up.
    The Chairman. We can save it for General Casey, who will be 
here at 2:30. We are going to go until 2:00. Is that correct, 
gentlemen? You will be here till then? And I am sorry the vote 
interrupted.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, General, Mr. Secretary 
and Admiral, thank you so much for being here. And Admiral, in 
the few minutes that I have I would like to ask you just a 
couple of questions. If you can't answer them, please feel free 
to say you need to get back to us and get it in the record, 
whatever.
    Yesterday the Secretary was here and basically indicated 
that any individual that came over to testify was free to give 
us their personal opinions as well as anything else now to do 
it.
    One of the things that concerns me is I heard the chairman 
ask you earlier today about our shipbuilding goals. And you 
talked about the 313 ship minimum that we would need. But that 
is a goal, it is not a plan. And one of the things Congress 
recognized long ago is that for us to reach where we need, from 
a national security point of view, we needed to have a 
shipbuilding plan, and we literally put in law that each year 
when the budget came over, the Secretary would need to give us 
that shipbuilding plan, so it wasn't just theory floating 
around, we could get our hands around it and see the plan.
    Secondly, that the Secretary was to certify that the budget 
that was sent over was sufficient to reach that plan. And if it 
wasn't, that we were to be told what the risks were of that 
disconnect.
    The question I would ask you this afternoon is, if members 
of this committee wanted to go find that plan, since the 
Secretary did not send it and indicates he is not going to send 
one, where would we go to find what the existing shipbuilding 
plan is for this Nation?
    And if so, if you could tell us where we would go, or get 
us a copy of that so we have that for the record.
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Forbes. But secondly, if we ask you today, are you 
comfortable certifying that this budget will get us to that 
shipbuilding plan, could you do it? And if not, what are the 
risks that we are exposed to by not being able to meet it?
    Admiral Roughead. Sir, and thank you. With regard to the 
shipbuilding plan, as you mentioned, in previous years, we had 
submitted the shipbuilding plan which we did for 2009. The 
budget that we have put forth today, and I am very pleased with 
the eight ships that we have and the seven ships that we have 
advance procurement for. That defines the path for our future, 
the restart of the DD 51, truncation of the 1,000, commitment 
to the littoral combat ship, but we are going to in the 
Quadrennial Defense Review get into the issue of amphibious 
lift, the pre-positioned force, and those are questions that 
have to be answered in the Quadrennial Defense Review, which 
will have an effect on what the plan will be.
    So what this budget does is it defines what we are asking 
to have authorized and appropriated this year, lays in advance 
procurement, and if I may say it, and to get back to an earlier 
question on the decommissionings, we are going to decommission 
seven ships this year, five in 2010. But at the end of fiscal 
year 2010, our fleet size will go up by four ships. So I do 
believe that what we have done with this budget and the 
progress of growth, that this puts us in a good position to 
realize the growth of the fleet that is necessary for our 
missions.
    Mr. Forbes. And Admiral, again, with all respect, please 
don't think I am trying to ask a question that is embarrassing 
or difficult. If we say the QDR is going to outline our plan, 
do we not basically have to say then, as of today, when the 
budget came over, we don't have a shipbuilding plan? I mean is, 
that what we are saying until the QDR comes out? Because the 
goal of this statute, as I understand it, was to be able to 
look to our budget and say, this budget will reach this plan. 
And if it won't, here is the risk that we have. And I realize 
that we have to constantly modify that plan, and the QDR may 
modify it. But as of today, do we have a shipbuilding plan 
anywhere in the Nation today? And if we do, does this budget 
reach that plan?
    Admiral Roughead. What I would say, Mr. Forbes, is that 
what we have done with this budget is we have made some 
fundamental decisions in the direction where we are going with 
the plan. And part of a plan is not just how much you are 
buying, but what you are going to buy. And I believe that 2010, 
more than any other recent budget, really did some affirmation 
and reaffirmation of what we are doing, and that the 
Quadrennial Defense Review will further define and refine, and 
after the QDR, coupled with this 2010 budget, I believe we will 
have a plan that sees our future more clearly than we have had 
in the past.
    The Chairman. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. And I want to thank 
our guests for being with us. And I want to thank my colleagues 
for pressing the CNO and others on the importance of 
shipbuilding. I welcome your help on that.
    Chief, last month we had an American flag vessel hijacked 
by some thugs with AK-47s. It is my understanding that when we 
send an American flag vessel that has military cargo to that 
part of the world, they pick up either a Navy team to protect 
it or a Blackwater-type team to protect it. We make a 
distinction though when we send an American flag vessel that is 
carrying American purchased foodstuffs or humanitarian goods to 
that part of the world, and we don't protect it.
    I am going to ask you to rethink that strategy based on 
what has happened. It has still got an American flag on it. We 
know that our enemies like to attack symbols of America. That 
is why they went after the Pentagon. That is why they went 
after the Twin Towers. That is why we presumed the flight that 
crashed in Pennsylvania was going after the Capitol.
    And I have got to believe, and I know you have got two 
simultaneous wars going on. But I have got to believe between 
the special boats units, the Navy Reserve, the United States 
Marine Corps Reserve, the Special Operation troops that are 
within the National Guard, the 20th Special Ops group and 
others, that either as units or individual augmentees, that you 
could, with one call for volunteers, put together enough teams 
to protect every American flag vessel that is transiting that 
area. Whether it is carrying foodstuffs or weapons, it is our 
stuff.
    It is fair to say the only thing that travels on American 
flag vessels anymore is something that the taxpayers have paid 
for. So it is our stuff. It is not like we are protecting the 
cargo for an individual company. It is something that our 
Nation has purchased. It is a symbol of America. And quite 
frankly, when ship owners from around the world who I know to 
be Americans re-flag their vessels foreign, and they say why 
should I stay? You charge me more for taxes. You make me buy an 
American flag vessel. I have got to pay an American more than I 
would pay a Panamanian? And my answer to them all along has 
been, but guess what, when this vessel gets attacked we are not 
going to send the Panamanian U.S. Navy Sea, Air, and Land 
Forces (SEALs) to rescue it. And as we just saw off of Somalia, 
we did send the American SEALs to rescue it.
    Now, we tried to do water side security on the Cole on the 
cheap and we lost 20 sailors and we almost lost a billion 
dollar warship. We tried to do airport security on the cheap 
and we lost people in the Twin Towers, we lost people at the 
Pentagon, we lost people in Pennsylvania.
    I think we are trying to transit that area on the cheap. 
And I think we ought to have learned. I think your team did a 
magnificent job. I think we should have learned a lesson that 
if it has got an American flag on it, it has got a cargo that 
our taxpayers have paid for that we are sending somewhere in 
the world, that it is our stuff and that it would be cheaper to 
put a team of trigger pullers on there than to have to go 
through what we went through last time. And I would welcome 
your thoughts on that.
    Admiral Roughead. Yes, sir. As you said, we are dealing 
with some thugs. They are criminals, they are pirates.
    Mr. Taylor. Who, by the way, are represented in London by 
guys with three-piece suits.
    Admiral Roughead. Yes, sir. I do not believe that they are 
ideologically driven. They are going to jump on a ship that 
looks to be a lucrative target regardless of what the flag may 
be. The fact that they elected to jump on an American flagship 
ended in the demise of three of them, and an extraordinary 
performance on the part of our Navy.
    I also believe that those shipping conditions that make the 
investments in protecting their ships is an important aspect of 
the entire counter-piracy process. We, and our friends and 
partners, are patrolling an area four times the size of Texas. 
And just last night, an example of a shipping company that had 
security guards on board, in my opinion, contract security 
guards, made a difference. They held the ship off. They held 
the pirates off the ship until a Korean destroyer and a Korean 
helicopter disrupted it until the USS Gettysburg closed and 
captured 17 pirates and right now the USS Gettysburg has 17 
pirates board.
    And that was stymied by contract guards that the shipping 
company elected to make the investment in. And yet, we, as 
navies, responded. And I believe that that scheme is something 
that needs to be pursued, as opposed to putting sailors, 
Marines, soldiers, onboard ships. I believe that the shipping 
companies have to address the security issues in that area as 
well.
    Mr. Taylor. Admiral, you and I both know we deal with, I 
don't know a handful of shipping lines to deliver our stuff. So 
one of them is doing it right. To what extent are you or 
someone from your organization going to sit down with Maritime 
Administration (MARAD), with the Coast Guard, with all the 
players and come up with a set of rules. Or again, we can do it 
legislatively. I would rather have the professionals do it in-
house so that it is done right, but it does have to be 
addressed.
    Admiral Roughead. Well, Mr. Chairman, just this past 
Monday, that is exactly what happened. Shipping companies, to 
include the union, to include my commander from the Middle 
East, to include the Commandant of the Coast Guard, to include 
officers from my staff, came together to address exactly what 
has to be done. Last Friday the Commandant of the Coast Guard 
issued a bulletin specifying the steps that the shippers needed 
to take.
    Mr. Taylor. Actually in fairness, I read it yesterday. It 
basically said you must prepare a plan. It didn't outline any 
steps.
    Admiral Roughead. Yes, sir. And that is exactly what some 
of the shipping companies are doing, and they are finding that 
it is working to their benefit.
    Mr. Taylor. Thank you, Mr. Chairman. We will have further 
discussions on this.
    The Chairman. I thank the gentleman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you very much 
gentlemen for being here.
    Admiral, it has been a pleasure working for you for these 
last few years, and General, a pleasure working for you these 
last few decades.
    Clearly, the Marine Corps is pouring lots of troops into 
Afghanistan. They are there. They are in Iraq. They are 
fighting, and we could talk all day about those tactics and 
procedures and problems that those Marines might be facing. And 
I would like to do that. But my time seems already to have run 
out, so it is going to be a little bit tough.
    I want to talk about vehicles for a change. General, the 
expeditionary fighting vehicle (EFV) is, there is no 
procurement for that in the budget. There seems to be some R&D, 
some $293 million, and it looks like, as near as I can tell, 
that we are moving forward for a procurement in four years or 
something like that. Can you just kind of give us an update on 
that vehicle? I know the Marine Corps has been important to 
them since I was a junior officer. Tell us what is going on.
    General Conway. Sir, you are right in your analysis of the 
budget. It is R&D at this point. Procurement dollars follow. We 
look at the initial operating capacity of the vehicle at about 
2014 but really sometime after that before we are at full 
operational capacity.
    The vehicle, within the last 18 months or so, had its non 
maturity breach. There was a force function in inside the 
building for both the Department of the Navy and the Office of 
the Secretary of Defense (OSD) to examine the vehicle. But in 
fact, it was determined to be suitable for continuation. And we 
have since had some reliability estimates done and were 
encouraged by all of that.
    The vehicle got into trouble with the reliability test that 
showed that it was not very reliable at all, not the vehicle 
that we thought we were about to procure. So improvements in 
the vehicle in a number of ways, and greater reliability lead 
us to be cautiously optimistic that it is going to be precisely 
what we need to be able to close that 25 miles from where the 
amphibs will lay off and any foreign shore.
    Now, all that said, the EFV is a tool in the kit bag for 
the discussion, I believe, that will occur in the QDR on 
amphibious capability. And so I think that the numbers of ships 
and that capability writ large is going to, at least in part, 
determine the future of the EFV.
    Mr. Kline. Okay. Thank you. I am really looking forward to 
that. We have been missing a whole lot of analysis here and the 
QDR is certainly going to be an important part of our looking 
at these programs. I am getting concerned that we are not 
moving out as quickly as I had hoped on that EFV. But something 
we are moving out on, and I know something you have put a lot 
of attention into, General, is the Mine Resistant Ambush 
Protected vehicle (MRAP). And I am looking at the dollars in 
the budget for that, and a combination according to the paper I 
have here, from the 2009 base request and the supplemental is 
$6.5 billion. And I am sure that you agree that it has proven 
to be an extraordinarily effective and helpful vehicle that no 
doubt saved the lives of many Marines.
    I don't yet understand how it fits into the Marine Corps. 
We have sort of always known where the High Mobility 
Multipurpose Wheeled Vehicles (HUMVEEs) were going to go and we 
have truck companies and we have Armored Vehicles (AVs) and we 
have Light Armored Vehicles (LAVs), and they fit into the 
battalions and things. What is the MRAP? What is its role in 
this thing?
    General Conway. Sir, at present, and we are talking now 
about what I would call the unimproved MRAP, the MRAP that we 
essentially sent into Iraq. We have about 2,200 of those 
vehicles. The immediate utility that we see in our exercising 
is with our road clearance detachments. We think that it will 
be our future engineer vehicle. In the past, they have sort of 
ridden into conflict in the back of a dump truck, and we think 
we owe them something better than that. And should we get into 
any future Improvised Explosive Device (IED) environments, and 
I think there is a high probability of that, based upon the 
cheap, inexpensive weapon that it is, then we have those MRAPs 
available.
    Our experience to date in Afghanistan has been that it is 
not a good transfer. That MRAP that works well for our 
functions in Iraq is not serving as well off-road in 
Afghanistan. So we have embarked on a program. There are two 
programs really. One that would develop what is called an MATV, 
an MRAP/all-terrain vehicle. We have a separate program where 
we have, through innovation and adaptability, put the 
suspension of an Medium Tactical Vehicle Replacement (MTVR) 7-
ton truck on to our Cat I MRAPs and we are pretty encouraged by 
that. The off road capability is apparently equal to that of 
the MTRV which, by the way, is the favorite vehicle of our 
troops in Afghanistan at the present, we think we can, if the 
continuation of these tests and we will know by about this time 
next month, but if it proves out as successfully as we hope, we 
will have those vehicles to Afghanistan sooner. And we will 
have more protection.
    Mr. Kline. If I might. My time really is about to expire 
here. But it is that point I guess I am trying to get at here, 
is you have got the MRAP that has worked in Iraq. It is an on-
road vehicle largely, you talk about using it for engineers. 
And now we are talking about Marines getting around, moving 
around in Afghanistan. And clearly, the IED threat could go up 
there, as it went in Iraq. And so, I see my time is expired, 
but the question is, will we have vehicles that our Marines 
need to ride in in Afghanistan?
    General Conway. The answer, sir, is absolutely, through one 
program or the other.
    Mr. Kline. All right. Thank you.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you gentlemen 
for being here today. We lost two fine young Marines in a 
helicopter crash outside of San Diego a week or so ago, Captain 
Jessica Conklin and First Lieutenant Aaron Cox. Lieutenant Cox 
was from my district and, in fact, I had nominated him for the 
Naval Academy and he chose the Marine Corps. I talked to his 
parents a couple of days after he died, and they are very, very 
proud of what he had done, very, very proud of his performance, 
not only at the Naval Academy but as a Marine, and we certainly 
regret their loss but celebrate their service.
    I wanted to direct my questions to the Marine Corps here. I 
don't know how long it has been now, General, two or three 
years ago, I think you first began talking about the fact that 
we did not have adequate troop strength in Afghanistan. I think 
you described it as, if you are going to do a program of clear, 
hold, and build, you have got to do more than just be able to 
clear. You have got to have the troops to hold and allow the 
people to build the country. We are clearly moving in that 
direction. And I think your Marines are very excited at the 
prospects of increased numbers of troops.
    My concern is, and we will probably see this discussion 
today and in the next week or two on the supplemental and then 
as the year goes on, my concern is that the American people may 
not be prepared for the length of time, that even with 
additional troops there is not something magical that is going 
to occur. And I wanted to give you the opportunity to explain 
how you see things happening over the next one, two, three, 
four, and five years. I asked the question yesterday to 
Secretary Gates, when the recent study came out that thought we 
needed to prepare at some level of a five- to ten-year 
involvement.
    But would you take my time to just talk about what you see 
as where we may be in a year or two or three and why we need to 
look over the long time.
    General Conway. I will indeed. I think it is fair to say 
that up until this time, almost right now, we have been in an 
economy of force operation in Afghanistan with the emphasis 
being Iraq. We now see the opportunity to change that out, and 
the chairman has said recently that Afghanistan is now his new 
focus.
    We believe that, at least for now, the influx of 10,000 
Marines and 2 brigades of Army troops, in the south in 
particular, is going to give us the ability to start to achieve 
stability and security. How well that will go will be 
determined by how emphatically the enemy responds. The enemy 
gets a vote in this whole arrangement. But lesser numbers of 
troops in the past, witness two form U going in and second 
battalion 7th Marines have had some pretty significant impact 
and have driven these people into our locations and to lesser 
numbers of engagement.
    I think we need to examine what happens over this next year 
with regard to our kinetic activity and how successful we will 
be. But there are other issues. I mentioned we are going into 
the Helmand River Valley where 93 percent of the drugs are 
produced in Afghanistan. And when I was there about a month and 
a half ago now, the estimates of resources to the tally began 
ranged somewhere between $80 million and $400 million a year 
that they can turn around and put against foreign fighters and 
explosives and those types of things. So we have got to work 
the drug issue simultaneous to increasing the level of security 
for the Afghanis who live in the region.
    At the same time, sir, we can be wildly successful in 
Afghanistan, I think, and not solve this Nation's worst 
problem, which is the al Qaeda, if the forces in Pakistan 
aren't having parallel or similar success across the border.
    Now, we are encouraged of course by recent events happening 
in the Swat Valley. Nothing like that has extended yet down to 
Balujistan opposite Regional Command (RC) south where we are 
operating. But it seems to me that the Pakistani government 
realizes there is a greater threat here and is now taking steps 
to deal with that.
    So I could not begin to put a timeline on how long all that 
is going to take. It is going to be evolutionary. It is going 
to be against some tried and true practices that come from our 
small wars manuals and some doctrine that the Army has 
developed. A large part of it will be something other than 
military force. We think that we need a larger civil 
involvement in that region to raise the quality of life of the 
people of Afghanistan to a degree where they see that we are 
not their enemy but the al Qaeda and the related Taliban are. 
That will take time.
    Dr. Snyder. I think I will stop there. Thank you for your 
comments. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And I welcome 
the panelists as everyone else has done. And I really wasn't 
going to--I am not going to ask you a question. I am going to 
make a statement, then I have a question about a totally 
different subject.
    But Secretary Penn, you know, it has always bothered me 
that the Secretaries before you, you come before us with the 
fighting team, the fighting team is known as the Navy and the 
Marine Corps. And yet, it says witnesses: The Honorable B.J. 
Penn, Acting Secretary of the Navy. What happened to the team?
    Now I am not asking you that question. Let me get to the 
point.
    Then I am looking at, in 2002, Marine Corps Commandant 
General James Jones, United States Naval Institute annual 
meeting April 4, 2002, Question: Legislation has been 
introduced to rename the Department of the Navy. What is your 
view? This is the answer from the Commandant. The Secretary of 
the Navy, Gordon England, has no objection. The CNO, Chief of 
Naval Operations, Admiral Vern Clark, has no objection. I have 
no objection. It is what it is. So if it passes, we are happy 
with that. Maybe that is something that is an idea that 
lawmakers believe whose time has come.
    Well, I am not going to ask the CNO. I am not going to ask 
the Acting Secretary. I am not going to ask the Commandant. I 
am not going to put anyone on the spot. But I will tell you 
that one of the things that has bothered me greatly with all 
that is being done by the fighting team, Navy and Marine Corps, 
that when a Marine dies, and the Secretary of the Navy sends a 
condolence letter to the wife of a Marine who gave his life for 
this country, there is nothing in the heading but the 
Department of the Navy, Washington, D.C., and then the first 
sentence is The Navy family extends its condolences.
    It is time that the Department of Navy and Marine Corps 
become one fighting team. And I am pleased to tell you today 
that many people here and that are not here, we have 249 
Members of the House that have signed legislation to rename the 
Department of Navy, Navy and Marine Corps. And I want to thank 
Senator Pat Roberts on the Senate side has dropped the same 
type of bill.
    I am not going to ask you today how you feel. I have got 
another question. But, Mr. Chairman, I want to thank you, as I 
have thanked Duncan Hunter, Sr., and now Mr. Skelton, our new 
chairman, for putting this language in the bill. And I believe 
sincerely that the American people want to see the stepchild 
become part of the family. And that would be the Department of 
Navy and Marine Corps. This is my question.
    The Chairman. If the gentleman would yield.
    Mr. Jones. Yes, sir I will yield to the chairman.
    The Chairman. I want to assure you that the chairman of the 
seapower subcommittee, as well as the chairman of the full 
committee, will include that in the base bill this year.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. You are welcome.
    Mr. Jones. And I thank the subcommittee chairman as well.
    Yesterday, I praised Secretary Gates, I praised Admiral 
Mullen for their concern for the injured. And I want to praise 
you both, as well as the Secretary of the Navy and Marine Corps 
sitting here today. And I want to say to you, Commandant 
Conway, you and your wife have earned the love and respect of 
the Marine team. I heard this as frequently as yesterday. I 
spoke to a couple of ladies down, Marine wives down at Camp 
Lejeune. What I want to bring to you very quickly is that there 
is a process and a treatment to help our soldiers and our 
Marines and our Navy when they have Post-Traumatic Stress 
Disorder (PTSD), when they have Traumatic Brain Injury (TBI), 
and it is called hyperbaric oxygen treatment. I would like to 
ask you both, and maybe the Secretary of the Navy and Marine 
Corps sitting there today, I would like to ask you both your 
opinion, because I will tell you, I was pleased with Admiral 
Mullen, he is going to have someone to come meet with me. He 
wants to see what we can do to move this study quicker than 
what it is taking now.
    Admiral, are you familiar with this process?
    Admiral Roughead. Yes, sir, I am. And the Commandant and I 
have talked about this in the past. And the comment that I made 
to him, and even though there may be some who can question the 
efficacy of it, my comment, if I recall, and Jim, if you want 
to add to it, was if it can help, if it may help, I am in. So 
that is where I am. I believe that we should, for our people, 
explore every avenue that we can to help them recover from what 
are really becoming some signature wounds of this war that we 
are in.
    Mr. Jones. Thank you.
    General Conway. Sir, as I travel about, you can imagine, a 
lot of people approach me with this idea or that in terms of 
how to treat TBI or PTSD. But I will tell you, I have seen none 
out there that I am more encouraged by than what I would call 
at this point the ad hoc results of hyperbaric treatment, to 
the point where we have put the Assistant Commandant of the 
Marine Corps in charge of trying to speed the process of the 
protocol that the Navy medicine must necessarily accomplish in 
order to rapidly bring this to treatment level for our Marines 
that we think are affected.
    In the meantime, there is a doctor down in New Orleans who 
treats people, and through some of our charitable organizations 
and so forth, we have sent forward those Marines suffering that 
we thought might be suicidal to get people in a treatment 
regimen because it can't hurt. It can only help. And so even in 
those cases we are encouraged by some of the things that we are 
seeing. So we think that we are on to something here.
    Mr. Jones. Well, I want to thank, Mr. Commandant, you and 
the Admiral for your statement. I wanted to get that on the 
record because I intend to work with my colleagues on both 
sides of the aisle to push this treatment for those in the Army 
and the Marine Corps, and I would really appreciate your 
commitment to our men and women in uniform. And thank you for 
those statements. And with that, Mr. Chairman, I will yield 
back and thank you again for your statement earlier.
    The Chairman. Thank you. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you so much 
for being here and for your extraordinary leadership to all of 
you. Thank you.
    As you know, the Vice President and Mrs. Biden are in San 
Diego today on the Ronald Reagan talking to military families, 
and it is one of those days when you really want to be in two 
places at once, of course. And my schedule didn't permit me to 
go, but I am delighted that they are focusing and highlighting 
our military families.
    We had a chance to meet with a group as well recently, a 
group of spouses, particularly who represent a large number of 
military families, and one of the concerns that they expressed 
and it was reflected in a poll that basically says about 94 
percent of military families believe that the country does not 
understand or appreciate their sacrifices. That is a pretty 
high number. We know how resilient they are, but we also know 
that they are really burned out. And so I am just wondering 
your reaction to that.
    Yesterday in our discussion with Chairman Mullen and with 
Secretary Gates, they really alluded to the fact that there are 
some differences in commands and the way that families are 
treated and taken into account. And I asked about promotions 
and, you know, where do we factor that in to promotions and, 
you know, getting back to the question of how they feel about 
the rest of the country, outside the military community and 
their understanding of their sacrifice is how can we impact 
that when it comes to our commands?
    General Conway. Ma'am, I will start and say that it doesn't 
totally surprise me because, as you can imagine, over time, and 
with the frequencies of our deployments, that a number of our 
spouses have gone home to be with their natural families for 
the period of time of the deployment. And what we hear almost 
routinely is that they are an anomaly back in their community. 
People do not understand their concerns with a child growing up 
without the other parent, or the worry that goes every time the 
phone rings, those kinds of things. So it doesn't surprise me 
that that would be the reaction to, let's say, the rest of 
America.
    It would be interesting to hear what they say about their 
service or the military or the DOD on a larger scale. I would 
hope that the response would be dramatically different, and 
that they are seeing the things that we are trying to do as 
services. They are bearing a tremendous load. And although we 
try to do as much as we can, I have to say, and I think it 
would be readily apparent, that the repetitiveness of it does 
get difficult. Our service culture helps some, in that we have 
seven-month deployments and that we rotate people out of the 
operating forces to what we call B billets, three-year billets 
elsewhere in a headquarters or training command or perhaps 
recruiting to try to give them time to recover before they 
might come back and do it again. But our families are the most 
brittle part of our equation. We accept that, and therefore we 
are putting a lot of the generosity you all have given us 
against those family service programs at the bases to try to 
raise the quality of life, show them psychologically that we do 
care, and make it better when the military member is gone.
    Mrs. Davis. If I could shift for a second. And I am sure, 
Admiral, that you would be concerned about this as well. And we 
talked about it yesterday also, is that when we are looking to 
budgets, and there are some concerns about fleet maintenance 
right now and trying to capture some dollars for that, that we 
may also be making it more difficult on families when it comes 
to their permanent duty stations and when they are actually 
transferred and how we deal with this. And it is an ongoing 
tough question. I mean, do you take dollars out of personnel or 
out of fleet maintenance? And I know that when I first came to 
Congress, one of the things I heard from a lot of the sailors 
is that, you know, they ended up doing a lot of make work 
because, you know, the maintenance was so poor. That changed 
over the last number of years when there were a lot more 
dollars, but there is a concern that we are relying too much on 
supplementals to kind of cover some of those costs. So I am 
asking about that tough question. And could you respond. What 
goes into making those decisions because the families are 
saying, hey, you know, it is affecting us. And plus we have 
this whole issue about how we treat our families.
    Admiral Roughead. Well, that is my world, Ms. Davis. And 
how do we balance and get the right balance in the fleet of 
current readiness, the personnel programs and the future Navy 
that we know is important for our country. And as I do that, I 
weigh all of those factors. But we have used the base budget 
and supplemental funding to provide the maintenance and 
operating funds that we need. There is no question that this 
year, because of the higher retention rates that we are 
experiencing, lower attrition rates, which I think speaks 
volumes about the fulfillment that our sailors get about being 
in the Navy, is pressurizing our manpower account.
    And I have had to throttle way back on permanent change of 
station moves until the supplemental funding is provided to us 
because I don't want to be in a position where I overspend the 
budget that you hold me accountable for. So we have had to do 
that. I await the supplemental coming, but those are just some 
of the decisions that we have to make. My commitment and what I 
told my leadership was that I won't break a promise to a 
sailor, and I won't take money out of their pockets, and I am 
holding to that. But we have had to make some adjustments in 
other areas to manage to our budget.
    The Chairman. I thank the gentlelady. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank you, 
Secretary Penn, Admiral Roughead, and General Conway. You know, 
it is always hard to know what to say to people like you that 
do what you can to keep the homeland safe and to continue to 
protect freedom for all of us. I never want to miss an 
opportunity to thank you for that.
    Admiral Roughead, you know, because Aegis ships are multi-
mission platforms, I know that you have a lot of operational 
trade offs, some mission optimization, and opportunity cost 
decisions that you have to make when you are deciding how and 
when and where to deploy those ships. And I guess one example 
would be that an Aegis ship deployed to focus on missile 
defense may be deployed in a location that is sub-optimal for 
its support to anti-surface warfare. And I guess I have got 
three questions here if I can squeeze them all in if you can 
help me with that.
    First, some have proposed using the Aegis Ballistic Missile 
Defense (BMD) to provide missile defense protection of Europe. 
And where would be the optimal locations to deploy Aegis ships 
to meet that challenge if the decision were made?
    Admiral Roughead. Yes, sir. The versatility that you get 
with an Aegis ship in a ballistic missile defense mode is 
pretty unique. You can place them wherever you need them. You 
can move them around. It will be a----
    Mr. Franks. For Europe, in particular.
    Admiral Roughead. For Europe, in particular, you would want 
to have them in the Mediterranean for the tracking and the 
potential targeting of countries in the southern tier or in the 
eastern Mediterranean, and then also, the potential to deploy 
them up in the northern waters around Europe. Where, exactly 
where is a function of how many you have, and so that is a 
calculus that has to be made.
    Mr. Franks. Well, if the Aegis ships should be deployed, 
whether it is the Black Sea or the north or the Baltic Sea or, 
as you say, and I think that is the right answer, is the 
Mediterranean, Eastern Mediterranean. What other missions can't 
it support? In other words, you know, what would be the 
planning and lead time? What would be the time required to 
deploy Aegis and what amount of threat warning time would be 
required to allow Aegis to move into theater or in these right 
locations? And what other missions might have to suffer because 
of it?
    Admiral Roughead. Well, the beauty of being a forward 
deployed Navy with that type of capability is you can move it 
around very quickly and respond literally within hours or days, 
depending on other things you have going on. The ship from 
which Captain Phillips was rescued was an Aegis ship that could 
just as easily have been swung into the Arabian Gulf for 
missile defense, into the Arabian Gulf for surface warfare. The 
fact is that even though someone would look at that ship and 
see it as a high-end capability, it can do lower-end missions. 
If you spend money on low-end ships, you can't go high. And 
that is why I believe our Aegis ships are a great investment 
for the Nation.
    Mr. Franks. Well, I couldn't agree with you more, Admiral. 
I really, I guess the point I am trying to get at here is that 
there are always operational trade-offs when you have to have 
lead time, these ships are not jets, and you have to have the 
time to move them around. And of course, there are operational 
trade-offs for other requirements that they have. And I know 
that you are fully aware of all that. But there have been those 
who have suggested that, you know, the European site could be 
easily replaced by Aegis and land based SM3. And of course, one 
of my big concerns about that is that those, the Aegis doesn't 
protect the homeland of the United States.
    It would be potentially able to protect Europe, but it is 
the trade-off and the operational trade-offs that we would have 
to make to do that, and it could not only pull these ships away 
from other necessary functions, but that the costs involved, 
can you speak to the cost of, you know, the disadvantage of in 
terms of costs of the Aegis ship having to be deployed there in 
the region, as opposed to land-based interceptors.
    Admiral Roughead. Well, I would say one of the solutions, 
sir, is you buy more ships. That is always an option. But 
anyway, it is always a trade-off. But even the Aegis ships when 
they are forward provide for other defense. For example, it was 
a series of Aegis ships in the Western Pacific that, when the 
North Koreans launched their missile, it was those Aegis ships 
that were providing the information that our leadership needed 
to make decisions. So you get a lot of coverage from the ships 
and a lot of value.
    Mr. Franks. I am a big believer in them, Admiral. I guess 
the point I am hoping that we can all keep in mind here is that 
when we do suggest that Aegis be a central component of 
protecting Europe we have got to keep the two things in mind. 
We have got operational trade-offs and it costs a lot to keep 
them there and they don't protect the homeland of the United 
States and I hope that that can continue to be part of the 
debate. And thank you all for the great work you do.
    The Chairman. I thank the gentleman. Mr. Courtney, the 
gentleman from Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman, and again, thank you 
to at all the witnesses for your patience also this morning.
    First of all, I just want to publicly state, Secretary 
Penn's son-in-law is leaving the Groton sub-base after his 
excellent service for the submarine Group 2, and I just want to 
again, publicly acknowledge that, as well as his daughter Emily 
graced the state for the time that they were there and we will 
miss them but I know they are going to do great things when 
they return here to Washington.
    So please, Chairman Taylor has a hearing scheduled tomorrow 
morning, so I won't be able to attend the ceremony, so please 
blame him and thank them for their great time in Connecticut.
    I also, again, want to salute Admiral Roughead for the 
great balancing act that I think you have done in this budget. 
I mean, when you think of the issues that you defuse with this 
plan in terms of the destroyer, you know, sort of contest that 
was out there six months ago, again, the work that you have 
done with the carrier plan, which just really seems to have 
satisfied all stakeholders and parties, you know, again, it is 
not easy doing what you have done and I think it really should 
be noted.
    Your testimony, written testimony included a comment which 
I wanted to at least share publicly. The chairman referred to 
it in his opening remarks, but your statement, I consider the 
Virginia class cost-reduction efforts a model for all our 
ships, submarines, and aircraft. Something that certainly the 
folks back in Connecticut appreciate. And again, we are very 
excited about the fact that the Missouri is going to be ready 
earlier and cheaper than all the predecessors, and I think that 
is a trend line that is going to continue.
    I wanted to just address a point though, which does still 
sort of fester out there, and despite the fact that the 
Virginia class program was designed and planned post-Cold War 
and is truly, in my opinion, a post-Cold War platform, there 
still seems to be a perception lingering out there that, you 
know, this is program that doesn't fit within our national 
security plans. And I just wonder if you could comment on that.
    Admiral Roughead. Yes, sir. And my perspective goes beyond 
just being the Chief of Naval Operations. As a fleet commander, 
as a battle group commander, the utility that we get from our 
nuclear submarines or our attack submarines is extraordinary. 
They are the most effective weapon that we have in sea control. 
They are versatile in being able to project power with the 
missiles that they can launch. And they give our commanders 
insight and information that cannot be gained with any other 
platform that we have in our military.
    Their ability to stay submerged, to operate at great 
distances from the country is unmatched by any other country in 
the world. And I refer oftentimes in Naval warfare if you are a 
chess player, submarines are the invisible queens. They do 
everything. You can put them anywhere, and no one knows when 
they are going to appear. And that is why our submarines are so 
important to our security and our safety and our prosperity.
    Mr. Courtney. Thank you. That is very well put. And I think 
also again it is important that people have to put it in 
context in terms of what the building plan is, is that in many 
respects it is partially replacing a declining fleet, but 
again, what you propose I think stabilize and balance it at an 
adequate number. And I guess that is the question I just want 
to confirm. I think I know the answer is that again, the budget 
that you proposed really is going to stay on target for the 
block three contract that was signed last December and that 
will get us to two a year in 2011; is that correct?
    Admiral Roughead. That is correct, sir. In fact, the 2010 
budget has a submarine in it and the advance procurement for 
the 11 boats. And I am very, very pleased that we were able to 
do that.
    Mr. Courtney. And on the Ohio, which I know you referred to 
when I was outside of the room. Again, the notion that somehow 
we are getting ahead of the Quadrennial Review and the Nuclear 
Posture Review, I mean, the fact is that this is an issue that 
has already been analyzed deeply, both by the Navy and the 
Pentagon, and we really are not, the proposal that you have 
before us is not really jumping ahead of what I think is 
adequate analysis to justify it. Is that your position?
    Admiral Roughead. That is my position, sir, that we are in 
the same timeframe that we were with the Ohios when we began 
the design of that boat. And now is the time to begin the 
design of the propulsion plant, the common vessel compartment, 
so that we don't suffer a gap in that important part of our 
strategic deterrent force.
    Mr. Courtney. Thank you, Admiral. I yield back.
    Mr. Taylor. [presiding.] The Chair thanks the gentleman. 
The chair now recognizes the gentleman from Missouri, Mr. Akin, 
for five minutes.
    Mr. Akin. Thank you, Mr. Chairman. And Admiral, I am going 
to ask a question I have asked you to before. I asked it 
yesterday and I am just one of these slow learners. I am having 
a hard time putting this all together in my mind. But let me 
try and explain my problem.
    I hear you talking about we are going to have 11 aircraft 
carriers. We may take, go down to 10 temporarily when the 
Enterprise is moved out, but still 10 or 11. And aircraft 
carriers seem to work better when there are airplanes on them. 
It seems like that works that way. And we are talking about 44 
airplanes per aircraft carrier. Now, a year ago we were looking 
at taking the F/A-18s and running them to, I believe it was 
10,000 hours, to see if we could do that and stretch them a 
little longer before we retired them. And I think the 
information came back, no, you can't because you have got to 
stay at the 8,600 or something, which means, according to the 
numbers that I have seen we have got a potential or projected 
shortfall of about 240 some fighter aircraft on these aircraft 
carriers.
    Now, you do the math and that comes out to more than five 
aircraft carriers. We are looking at almost 50 percent down on 
the number of fighter aircraft on aircraft carriers.
    Now I am hearing this Quadrennial Review and everything, 
but I don't know if the Quadrennial Review is going to say we 
only need five aircraft carriers. No one has suggested that 
particularly. It seems like we have got just a couple of 
choices. One, you have less aircraft carriers, or the other, 
you put a lot less airplanes on the aircraft carriers you have, 
to the point of almost two-to-one ratio. So I guess the 
question I am having is, and joint strike fighter may be a 
better aircraft, and if it is I will be the first one to say 
let's get the right product or the best product we can for our 
money.
    On the other hand, the F/A-18s, you can get five-and-a-half 
of them for one joint strike fighter, and you can get them in a 
time period that you know, and we have the shortfall, which you 
can't make up with GSM from what I am seeing. So I guess my 
question is, please explain to me, why aren't we looking at a 
multi-year and at least supplementing some of that downside on 
the F/A-18s.
    Admiral Roughead. Well, thank you, sir. And what we have 
done in the 2010 budget is we have put in above what we 
understand is the sustaining rate for the line of the 18. And 
in this budget we have 18 electric network frequency (ENF), the 
Growler, and then we also have a number of Es and Fs in there, 
9 Es and Fs, which is above the sustaining line or sustaining 
rate for the line.
    Mr. Akin. There were originally 18 and you cut them back to 
9?
    Admiral Roughead. Yes, sir. And as the Secretary mentioned 
yesterday, in the Quadrennial Defense Review we are going to 
have a very thorough and thoughtful discussion of tac air. And 
then, as we do that, we will look to what are the best options 
to continue to provide the type of Naval tactical aviation that 
the Nation needs. And there are, there is potential in buying 
some extra life on our As through Ds, as you well know, sir, 
for at least part of that fleet. And then we are going to have 
to look at the entire tac air issue. I look forward to that. 
You are absolutely right. The 18 E and F is an extraordinary 
airplane. It is serving us well everywhere we operate it, and 
it is providing tremendous support to our troops on the ground 
in Afghanistan. Great airplane, but we, and I welcome the 
discussions that we are going to have in the Quadrennial 
Defense Review on tactical aviation.
    Mr. Akin. I think what I am hearing you say is yeah, there 
are not maybe that many alternatives, but we are going to 
basically be cracking that nut at that particular time in 
history. I mean, I don't understand there is much you can do 
other than either have less aircraft carriers or have less 
airplanes on the carriers or get the planes. I mean, it seems 
like there are not too many ways to wiggle.
    Admiral Roughead. Yes, sir. Those are the discussions that 
I am sure the Quadrennial Defense Review will take us through.
    Mr. Akin. Right. Well I certainly appreciate your being 
patient with some of the slow learners here among us. Thank you 
very much. And I appreciate your good work. And General, I 
enjoyed our discussion the other day. Don't have any questions. 
I am all ready to get another ride in one of your high-speed 
boats over there. So thank you. Thank you Mr. Chairman.
    Mr. Taylor. The Chair thanks the gentleman and would note 
that staff is not allowed to ask questions, but to the CNO, the 
gentleman to my immediate left is the former commanding officer 
of the SSBN 74, the USS Louisiana, who has asked that in the 
future if the CNO could refer to his former force as something 
other than the invisible queens, if you could use another 
analogy for that force as something other than the invisible 
queens. I thought that Captain Ebbs made a good point, and I 
have relayed that message.
    Admiral Roughead. Obviously, he is not a chess player, Mr. 
Chairman.
    Mr. Taylor. Having said that, the Chair now recognizes the 
gentleman from Virginia, Mr. Nye.
    Mr. Nye. Thank you very much, Mr. Chairman. And I want to 
thank all of you here today for your tremendous service to our 
country.
    First of all, Admiral Roughead, you said very well today 
that it behooves us to minimize our ship retirements by fully 
funding our maintenance account. And I would just like to make 
sure I am up to speed on where we are in terms of our backlog 
on maintenance and repair. I am trying to keep up with the 
math. I have got us somewhere between $425 and $450 million on 
our backlog for maintenance and repair. Am I in the right 
vicinity there?
    Admiral Roughead. Well, what I would say, Mr. Nye, is that 
as we go through this year, we have not cancelled any 
availabilities. There have been none that have been cancelled. 
We have held to that. And as you know, we make the most of our 
base budget and our supplemental money or contingency funding, 
but I have not cancelled any availabilities this year.
    Mr. Nye. So where are we in terms of our requirements and 
what we have got in terms of our maintenance funds? Are you 
saying that we are up to date on those accounts?
    Admiral Roughead. Where we are with regard to, at least for 
the Fiscal Year 2010 budget, we are funding that account to 
about 96 percent, which is consistent with where we have been 
in years past, and what it allows us to do is to accept some 
risk as we try to balance all of the competing demands that we 
have in the Navy. I am comfortable with where we are. But it is 
important that the supplemental and also our base budget 
reflect the request.
    I would also say that as we try to make that balance and 
optimize those funds, losing money because of a peace time 
training offset, as we did last year, is not helpful in us 
being able to meet the requirements and meet the plans that we 
had in place, so your support in that would be greatly 
appreciated, sir.
    Mr. Nye. Thank you. I think you made a great point about 
balancing a long list of demands and requirements that we have 
right now. Secretary Penn, you sent me a letter on April 24 
where you mentioned that the Navy had decided to postpone a 
final decision on home-porting a nuclear carrier at Mayport 
until we have a chance to go through the QDR process this year 
and take a look at balancing these priorities, vis-a-vis our 
scarce defense dollars. And I appreciate your comments in that 
letter.
    You mentioned also that DOD would be requesting and indeed 
has requested in the 2010 budget some $75 million for dredging 
and dock upgrades at Mayport in case of an emergency for a 
location of a nuclear carrier there in Mayport under emergency 
circumstances. What I wanted to ask you is, have you 
considered, given the fact that besides Norfolk, for instance, 
commercial ports at Baltimore, Corpus Christi, Charleston, and 
some others that have deep draft depths of between 47 and 50 
feet might be appropriate for the use, not for a home port, but 
for in the case of an emergency, docking, a nuclear carrier. 
Have you guys looked at the notion of using a commercial port 
just in case of an emergency?
     Secretary Penn. I think that in the case of emergency we 
would use whatever port available, but our choice would be to 
go to military, a Navy port just for the security and so forth.
    Mr. Nye. Okay. So you have looked at the idea of 
potentially using a commercial port in case of an emergency?
    Secretary Penn. In case of emergency.
    Mr. Nye. Okay. Do you have a contingency plan in place for 
all of our ships for emergencies, for disasters, for where you 
would move them and put them? Is that something you have 
developed already?
    Secretary Penn. I think the operational side would like 
to----
    Admiral Roughead. What I believe we do not have--well, I 
know we don't have on the east coast of the United States--is a 
place where we can put a nuclear aircraft carrier and be able 
to conduct the type of support and maintenance that we would 
need in any other place other than Norfolk.
    On the west coast, we have three ports, gives us great 
strategic flexibility, and that is why I made the 
recommendation to upgrade the carrier port of Mayport, which 
has been a carrier port since 1952, to accommodate a nuclear 
aircraft carrier and be able to take care of it there, should 
Norfolk be lost for any reason. I believe that that remains a 
good strategic option, and we will get into that further during 
the Quadrennial Defense Review as to the pros and cons of that.
    Mr. Nye. I thank you.
    I would be interested in seeing what a full plan looks like 
for all of our different types of ships and what we do in case 
of emergencies.
    Admiral Roughead. Mr. Nye, we have options for our 
combatants and for our submarines on both coasts, and we can 
bring up to you what those options are. But on the east coast 
there is no other place to put an aircraft carrier other than 
Norfolk, Virginia.
    Mr. Nye. Understood.
    I see that my time has expired. Let me just close by saying 
that I look forward to continuing to have this very important 
discussion about the use of our scarce defense dollars and 
priorities over the course of the upcoming year. So thank you.
    The Chairman. The gentleman, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen, and I would like to address my 
question here to the Commandant of the stepchild of the 
Department of the Navy here.
    Could you just fill me in--and you can have all of my time 
here. First question, do you know who is going to be in control 
of RC South for you? Who is going to be ground commander for 
the marines in RC South?
    General Conway. Right now, it is being wrapped up, the 
senior command, by a general from the Netherlands. The Brits 
have the next rotation. So for the vast majority of this next 
calendar year it is going to be the Brits.
    Mr. Hunter. Who is going to be in charge of the marines 
there in RC South?
    General Conway. Well, there is a Brigadier General, Larry 
Nicholson, who has already arrived in theater who is the 
expeditionary brigade commander.
    Mr. Hunter. Thank you.
    Next question--and this is what you can have the rest of 
the time for. Are you satisfied that you are able to meet the 
challenges of the IED surge that is going to happen as we go 
in, as we surge? I, probably better than anybody else up here, 
know that we are going to take casualties because we are going 
to go out and we are going to fight. But, on the other hand, 
when it comes to IEDs, without the infrastructure we have in 
Iraq right now, are you happy? Are you satisfied that the 
counter-IED infrastructure that we have there right now is 
where you want it to be for this Marine surge to take place?
    General Conway. Well, sir, it is never as good as we would 
like it to be, and you again of all people realize that they 
can build an IED that will be big enough to take out anything 
that we have got. Happily, right now we are not seeing that so 
much in Afghanistan. The level of sophistication, the size of 
the IEDs that we are seeing are not what we have witnessed in 
Iraq, but it is also on a progression, and it is getting more 
sophisticated. They are getting bigger. They are using the 
culverts and those types of things.
    So the answer is, no, we are never satisfied until we have 
found a way to detect and defeat the device at range, and of 
course, agencies work to be able to do that. We work to attack 
the entire chain all the way from the person with the money to 
the bomb maker to the bomb layer to the person that detonates, 
with mixed success along that whole continuum, but we are never 
satisfied.
    Mr. Hunter. The Marine Corps doesn't have any organic 
counter-IED Intelligence, Surveillance, and Reconnaisance 
(ISR). It doesn't have a Predator that can actually strike. You 
have Pioneers, and you have some other International Security 
Organizations (ISOs). You don't have the task force--you don't 
have something like that. Are you satisfied that the other 
services are going to be able to cover for you as you go in?
    General Conway. I think so. You are right. We have organic 
ISR but nothing that is armed that can strike, say, a half a 
dozen guys that are obviously laying an IED.
    That said, General McKiernan has said--I suspect General 
McCrystal will continue the thought process--that the real 
fight is going to be in RC South. That is going to be his main 
effort. When that happens, you are allocated these other 
national assets, if you will, in large measure, and we do think 
that we will have plenty of those to be able to strike a target 
if we identify some nefarious activity.
    Mr. Hunter. You can't foresee any Army, Marine Corps, RC 
East, RC South, not turf war necessarily but kind of trying to 
gain assets back and forth between RC South and RC East, trying 
to determine who has the most need for them?
    General Conway. Well, we think that that is going to be in 
the south, just based upon the fact that, again, things are 
relatively more stable in the east and up north. We do think, 
as you indicated by your question, there is going to be a 
larger fight down south. So when that happens and you become 
the priority of effort, you get the priority of ISR support. So 
we are guardedly optimistic that those commanders are going to 
have those downlinks and be able to vector these aircraft where 
they need to go.
    Mr. Hunter. Are you going to be driving the upgraded seven-
tons? Because the MRAPs aren't going to work on the road. That 
is what we went over earlier. The MRAPs aren't going to work, 
and we are not going to have the next-generation armored 
vehicle by the time you guys--we are talking about it now, but 
how we are going to fund it and what we are going to do? So are 
you satisfied in your ability to be armored and drive on the 
roads? I am just getting Iraq flashbacks pre-MRAP on this stuff 
where we were talking lots of casualties. We didn't have enough 
armor.
    General Conway. Frankly, two things. We want to get off the 
road, okay, because that makes us predictable and that is how 
you get in trouble with IEDs.
    Right now, the most popular vehicle in Iraq is the Light 
Tactical Vehicle Replacement (LTVR), the seven-ton, because it 
can get off-road. It has got the mobility and so forth.
    As I started to indicate to Mr. Kline, we are putting that 
suspension on our smaller MRAPs with pretty good success, we 
believe, to date. So at some point, I think in the very near 
future, we may well have both, a heavy MRAP in the range of 
35,000 pounds that can get off-road in ways that it never did 
in Iraq.
    Mr. Hunter. Thank you, General.
    Thank you. I yield back the balance of my time.
    The Chairman. I thank the gentleman.
    Ms. Bordallo from Guam.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Penn, Admiral Roughead, and General Conway, I 
thank you all for your testimonies this morning.
    And, Secretary Penn, I believe this may be one of your last 
hearings before this committee, so I want to go on record to 
thank you for your steadfast leadership and unwavering support 
of the military buildup on Guam, and I appreciated the 
opportunity to work closely with you and your staff over the 
last few years. I certainly wish you good luck in the future.
    Secretary Penn. Thank you so much, ma'am.
    Ms. Bordallo. First, I would like to direct my question to 
General Conway.
    Yesterday, we heard testimony from the Secretary of 
Defense, and he reaffirmed the United States Government's 
commitment to the military buildup on Guam. However, your 
recent comments to an Appropriations Committee hearing seem to 
indicate otherwise. So can you please clarify your position on 
the military buildup on Guam? Are you supportive of moving 
marines from Okinawa, Japan, to Guam?
    Now, I understand, General, that there are concerns, and we 
will get to those in my second question, but my first question: 
Are you supportive of executing the Secretary of Defense's 
directive to make the buildup a success?
    General Conway. Yes, ma'am. You weren't in the chamber 
earlier, but the chairman asked essentially that same question, 
and my preamble was that the United States Marine Corps does 
support the move to Guam.
    Ms. Bordallo. Thank you. Now, I know there is a concern 
about training requirements in the Pacific region overall, but 
let me ask you this question. What comes first, the realignment 
or the training? And if you feel it is both, then why haven't 
you formally developed your training requirements requested in 
EIS or an amended MRIC?
    General Conway. Ma'am, we have long since before developed 
our EIS requirements. We have grave considerations for our 
ability to train on Guam and in the adjacent islands and the 
ability to keep those marines ready to go in response to a 
national contingency. So the requirements, as Mr. Penn can 
validate, are well-known.
    Ms. Bordallo. Very good. Secretary?
    Secretary Penn. Yes, ma'am. As you know, if we start 
another EIS, that is called segmenting, which means we have to 
go start over again, and we would lose the three years we have 
been working on this and probably push it out to five years. So 
we want to go ahead do the AIP EIS, and then we will go back 
and pick up the training EIS for the other islands.
    Ms. Bordallo. I further understand that there are concerns 
about--this is again for you, General. I understand there are 
concerns about the local infrastructure on Guam. Can you 
comment on, one, actionable and concrete steps that you have 
taken to address the local infrastructure concerns?
    I have in my hand a letter from Secretary Penn expressing 
support for a U.S. Department of Agriculture (USDA) loan for 
the closure of the Ordot landfill. Now, can I expect a letter 
from you as well attesting to the need for these improvements 
on Guam in order to better fulfill the Marine Corps mission?
    General Conway. Ma'am, we identified the requirements that 
our force will have on Guam. It is more a naval facilities 
concern to ensure that those requirements are met in some form 
or fashion, and, once again, we have identified those 
requirements for what we think is going to be the mix of both 
our bachelor marines and our families on the island. There are 
issues with land purchase, land lease, those types of things, 
training ranges, and those type of things, but it is all rolled 
up in the requirement documents.
    Ms. Bordallo. All right. And on the landfill?
    General Conway. I am not familiar with that one, to be 
honest with you.
    Ms. Bordallo. Secretary, do you want to comment on that?
    Secretary Penn. Yes, ma'am. As you know, we have gone so 
far as to meet with Environmental Protection Agency (EPA) 
Region 9 almost two years ago talking about the landfill, and 
you have my letter. We are working with all the interagencies 
trying to get their support on the infrastructure requirements 
of Guam.
    Ms. Bordallo. I am just expecting something, General, 
because it will be a joint use, the Ordot landfill, and so if 
at all possible we would like to have some kind of assurance.
    General Conway. I will certainly check into it, ma'am, and 
see how it affects our presence on Guam, and if there is a 
requirement there, it will be forwarded. But, again, to date, 
we have not identified that as an issue.
    Ms. Bordallo. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Mr. Coffman, please.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Conway, I think we are in--to focus the main effort 
of where you are putting marines in in southern Afghanistan, if 
I think back to Iraq in 2005, they launched--in al Anbar 
Province they launched Operation Rivergate, which was to 
establish I think a battalion-sized blocking position just 
beneath the Haditha Dam, and then Operation Stillgate I think 
was in the Al Qaim area toward the Syrian border.
    Prior to having that larger troop presence, marines I think 
were just doing operations along what they called the ``rat 
line'' every now and then, and then pushing--the insurgents 
kind of knew to just leave the area, and then when the marines 
were done with the operation they would come back and kill 
anybody who they suspected cooperated with the marines while 
they were present there. And so with that larger presence, 
instead of having just a company reinforced, having a battalion 
reinforced in both positions made a world of difference.
    Are you concerned that--I mean, do you have the kind of 
concentration that is needed in this area in Kandahar Province 
to make a difference, or are you going to be spread too thin?
    General Conway. Sir, I will go back to the requirements 
that General McKiernan has established for forces in the south, 
and, frankly, one of them goes back to the two-star 
headquarters that would relieve the Brits. That is scheduled at 
this point to be U.S. Headquarters, and he has a request for 
force out there that would accomplish that. Those, at least at 
this point, portend to be marines.
    The other thing that is not yet satisfied is another 
regiment or brigade combat teams (BCTs) worth of troops that he 
would request at some point later on in 2010, and, at this 
point, the determination by the Secretary of Defense is to wait 
and see progress in the country before there is, say, the 
meeting of that Request for Forces (RFF) and the assignment of 
troops.
    At this point, I believe that there is enough to make a 
difference. Whether there is enough to do what our campaign 
strategy would call for remains to be seen, and that will be 
based on enemy action.
    I can tell you, based upon a recent visit there, there is 
about three places in our sector now that I think are going to 
constitute some fairly significant fighting. For whatever 
combination of reasons, the enemy has dug in in these three 
locations, at least the one instance we know to protect his 
drug money, but we are going to have to root them out of there 
if we are truly going to be the strongest tribe yet again and 
be able to say that we are creating stability and security for 
the population in the whole of the province.
    Mr. Coffman. A central objective is certainly to destroy 
those poppy fields. Is there a robust enough plan enough to do 
that without unnecessarily alienating the farmers? Although I 
know some of them are cooperating with the Taliban, but how do 
you bridge that?
    General Conway. Sir, right now, there is not enough. They 
have the right design, the right concepts that work to be able 
to provide alternative crops, education to the farmers on how 
to grow those crops, infrastructure plans to get the product to 
market after harvest, and so forth. The problem that we see is 
the drug problem is that large. The solution set being put 
against it is like that on a comparative basis. So it needs 
much more scope to be able to overcome the size of the drug 
problem in Helmand.
    Mr. Coffman. Are we creating a new class of enemy by virtue 
of having the objective--and I think the objective is a good 
one, because those are resources that are going to the Taliban 
in some form--but I mean without a robust plan to help those 
farmers, are we unnecessarily creating a new class of enemy?
    General Conway. Sir, there is every possibility for that. 
If we go in and destroy a man's ability to feed his family 
based on what he has been doing now for a decade, we may turn 
him against us. That is the value of having this alternative 
means readily available to assist him in doing something now 
that is legal. So we are concerned about that, and the 
commanders are fully attuned to let's not create more enemy in 
the process here of poppy destruction.
    Mr. Coffman. I wonder if the Secretary could comment on 
that.
    Secretary Penn. Going on with what the General said, this 
is strictly about the hearts and minds of our enemy, and we are 
doing everything in our power to destroy the fields. We have to 
deprive al Qaeda (AQ), Taliban of their resources, and this is 
how we do it.
    Mr. Coffman. Right, but I don't see a robust enough plan. I 
understand that objective, and I think that is a good objective 
and that needs to be done, but I don't see we are--there is a 
robust enough plan to do that where we are not creating a new 
class of enemy and we are not taking unnecessary casualties as 
a result of that.
    Thank you, Mr. Chairman.
    The Chairman. We have three votes: one 15-minute vote and 
two 5-minute votes. We have two members who have not asked 
questions, and we are going to try to squeeze them both in.
    Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    Admiral, I wanted to ask you at this time two questions. 
Both of them have to do about the Navy's contribution to an 
asymmetric threat. The first is what I guess we used to call a 
rogue nation, Iran, and the ballistic missile threat it 
portends. In Secretary Gates' speech about how we were going to 
reform the military, embedded in it was a line that said we are 
going to have an Aegis upgrade by software for about--well--
that many ships.
    The President allegedly wrote a letter to the president of 
Russia, second data point, that said we would kind of consider 
giving up our missile site in Poland if you help us with the 
Iranians not to get a nuclear weapon.
    When he spoke on proliferation in Prague, third data point, 
he talked about a missile defense system of Europe--not in 
Europe but of Europe--in a cost-effective way.
    So my fourth point is, Institute for Defense Analyses (IDA) 
has said that a sunk--and I ask this in the sense of, as we 
allocate national treasure, we don't want to have a redundant 
capability out there, that is, if we don't have to--that three 
or four Aegis ships give an equivalent and even a broader but 
equivalent de minimis capability the same as the missile sites 
in Europe. It is a sunk cost. It needs some software upgrade, 
but it is there.
    How do you look at that trade-off, that you can assume that 
responsibility not just for the defense of Europe but an 
equivalent capability, de minimis, that a land site in Poland 
would give? Is that the correct way to look at this shift that 
you desire between the DDG-1000 and the DDG-51?
    Admiral Roughead. Yes, sir, and I would say that our 
ability to use our Aegis fleet--our existing Aegis fleet and at 
minimal cost upgrade them into very capable missile defense 
assets, not just for search and track but also to equip them 
with the interceptors that are required, is a good investment, 
and, in fact, this year's budget, the 2010 budget, has six more 
upgrades included in there.
    Mr. Sestak. How many Aegis ships now do you have?
    Admiral Roughead. Right now, we have 18.
    Mr. Sestak. And how many Aegis ships that could be 
upgraded?
    Admiral Roughead. We can upgrade all but the first few 
cruisers that we have.
    Mr. Sestak. I am sorry, Admiral, what is that number 
roughly?
    Admiral Roughead. That number, if we wanted to do the whole 
fleet, would be around 70 ships, if we wanted to do the entire 
fleet.
    Mr. Sestak. So if this political-military tradeoff were to 
be done, in a sense, these are 70 or 80 ships already 
purchased, some de minimis upgrade, that you could move around 
off North Korea, Iran and give, according to IDA, the same 
capability as more sunk costs of missiles ashore; is that 
correct?
    Admiral Roughead. Yes, sir. I believe the investments that 
we can make in Aegis ships give the Nation a very versatile and 
capable ballistic missile defense system, obviously optimized 
regionally, but also that can contribute to the broader 
intercontinental equation as well.
    Mr. Sestak. And potentially even help us move with a nation 
like Iran, if you can get a Russia that doesn't like the 
missile sites in Europe.
    The second question has to do with another asymmetric set 
at the other end of the spectrum: piracy. This isn't your 
responsibility. This is Central Command's responsibility or 
African Command's responsibility of how many ships and all. But 
last week you had I think, according to the Web site, 105 ships 
forward deployed, four or so off the coast of Africa. We have 
convoyed ships north and south in the Persian Gulf. Fifty at a 
time go north--past north Somalia on the way north; 50 come the 
way south. The arguments that seem to come out is, boy, it is 
the size of Texas.
    Admiral Roughead. Four times.
    Mr. Sestak. But the Atlantic Ocean, as we convoy it and 
protect it, it was a mission. What are the other 109 ships 
doing that they can be assisting us off that coast?
    Admiral Roughead. Well, as you know, we maintain a healthy 
presence in the Arabian Gulf itself. Our ability to operate in 
the Western Pacific, Indian Ocean to assure and deter----
    Mr. Sestak. But what threat are they facing that they 
couldn't be moved over?
    Admiral Roughead. I would say that it is not always the 
issue of countering a threat but the ability for the United 
States to be present, to be able to influence, and the impact 
and the assurance and deterrence that our fleet provides 
globally is significant and to walk away from other places of 
the world will--I believe has the potential to create problems. 
Our presence in the Southern Hemisphere, in the Western 
Pacific, in the South Pacific, indeed even in the areas around 
Africa, I believe is a powerful symbol of American interest and 
American capability and power that assures friends and deters 
those who wish us ill.
    I would say that in the area off Somalia we have been very 
successful in bringing together a coalition, an international 
force, that adds to our capability there. Just last night, the 
Koreans and us stopped a hijacking and seized pirates. That in 
and of itself is also very valuable.
    The Chairman. Mr. Wittman, there is about two-and-a-half 
minutes left on the vote. Do you think you can squeeze a quick 
question?
    Mr. Wittman. Yes, sir. Thank you, Mr. Chairman. I will cut 
right to the chase.
    Admiral Roughead, Secretary Penn, General Conway, thank you 
so much and thanks for your service to this Nation. I will cut 
right to the chase.
    General Conway, I understand there are a number of 
challenges that the Marine Corps faces, one of them obviously 
being in the area of training. I understand there is a 
requirement for a venue to create the capacity for a marine 
expeditionary brigade level of training. Can you tell me a 
little bit about the Marine Corps' plan to meet that challenge 
to provide that capability and what that means as far as your 
operational capacity and readiness?
    General Conway. Sir, we do see a need to be able to train a 
brigade-size unit at one time in one location with live fire, 
and we are examining, therefore, tracts of land at our largest 
military base in the States, the Twenty-Nine Palms to see what 
that entails.
    There is a couple of different ways to skin that cat. One 
is with a land purchase. That is 450,000 acres plus. Another 
one might work if we go something closer to about 195,000 
acres.
    There is an issue of some civilian use of some of that 
land. There are environmental issues. All of this has expense 
associated with it. All these things are being looked at in 
studies right now to see if we can't both train and at the same 
time provide some level of joint use for our fellow Americans.
    Mr. Wittman. Very good.
    The Chairman. Mr. Wittman, we think we better go vote; and, 
gentlemen, thank you for your presence and your excellent 
testimony.
    [Whereupon, at 1:49 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 14, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 14, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2148.001
    
    [GRAPHIC] [TIFF OMITTED] T2148.002
    
    [GRAPHIC] [TIFF OMITTED] T2148.003
    
    [GRAPHIC] [TIFF OMITTED] T2148.004
    
    [GRAPHIC] [TIFF OMITTED] T2148.005
    
    [GRAPHIC] [TIFF OMITTED] T2148.006
    
    [GRAPHIC] [TIFF OMITTED] T2148.007
    
    [GRAPHIC] [TIFF OMITTED] T2148.008
    
    [GRAPHIC] [TIFF OMITTED] T2148.009
    
    [GRAPHIC] [TIFF OMITTED] T2148.010
    
    [GRAPHIC] [TIFF OMITTED] T2148.011
    
    [GRAPHIC] [TIFF OMITTED] T2148.012
    
    [GRAPHIC] [TIFF OMITTED] T2148.013
    
    [GRAPHIC] [TIFF OMITTED] T2148.014
    
    [GRAPHIC] [TIFF OMITTED] T2148.015
    
    [GRAPHIC] [TIFF OMITTED] T2148.016
    
    [GRAPHIC] [TIFF OMITTED] T2148.017
    
    [GRAPHIC] [TIFF OMITTED] T2148.018
    
    [GRAPHIC] [TIFF OMITTED] T2148.019
    
    [GRAPHIC] [TIFF OMITTED] T2148.020
    
    [GRAPHIC] [TIFF OMITTED] T2148.021
    
    [GRAPHIC] [TIFF OMITTED] T2148.022
    
    [GRAPHIC] [TIFF OMITTED] T2148.023
    
    [GRAPHIC] [TIFF OMITTED] T2148.024
    
    [GRAPHIC] [TIFF OMITTED] T2148.025
    
    [GRAPHIC] [TIFF OMITTED] T2148.026
    
    [GRAPHIC] [TIFF OMITTED] T2148.027
    
    [GRAPHIC] [TIFF OMITTED] T2148.028
    
    [GRAPHIC] [TIFF OMITTED] T2148.029
    
    [GRAPHIC] [TIFF OMITTED] T2148.030
    
    [GRAPHIC] [TIFF OMITTED] T2148.031
    
    [GRAPHIC] [TIFF OMITTED] T2148.032
    
    [GRAPHIC] [TIFF OMITTED] T2148.033
    
    [GRAPHIC] [TIFF OMITTED] T2148.034
    
    [GRAPHIC] [TIFF OMITTED] T2148.035
    
    [GRAPHIC] [TIFF OMITTED] T2148.036
    
    [GRAPHIC] [TIFF OMITTED] T2148.037
    
    [GRAPHIC] [TIFF OMITTED] T2148.038
    
    [GRAPHIC] [TIFF OMITTED] T2148.039
    
    [GRAPHIC] [TIFF OMITTED] T2148.040
    
    [GRAPHIC] [TIFF OMITTED] T2148.041
    
    [GRAPHIC] [TIFF OMITTED] T2148.042
    
    [GRAPHIC] [TIFF OMITTED] T2148.043
    
    [GRAPHIC] [TIFF OMITTED] T2148.044
    
    [GRAPHIC] [TIFF OMITTED] T2148.045
    
    [GRAPHIC] [TIFF OMITTED] T2148.046
    
    [GRAPHIC] [TIFF OMITTED] T2148.047
    
    [GRAPHIC] [TIFF OMITTED] T2148.048
    
    [GRAPHIC] [TIFF OMITTED] T2148.049
    
    [GRAPHIC] [TIFF OMITTED] T2148.050
    
    [GRAPHIC] [TIFF OMITTED] T2148.051
    
    [GRAPHIC] [TIFF OMITTED] T2148.052
    
    [GRAPHIC] [TIFF OMITTED] T2148.053
    
    [GRAPHIC] [TIFF OMITTED] T2148.054
    
    [GRAPHIC] [TIFF OMITTED] T2148.055
    
    [GRAPHIC] [TIFF OMITTED] T2148.056
    
    [GRAPHIC] [TIFF OMITTED] T2148.057
    
    [GRAPHIC] [TIFF OMITTED] T2148.058
    
    [GRAPHIC] [TIFF OMITTED] T2148.059
    
    [GRAPHIC] [TIFF OMITTED] T2148.060
    
    [GRAPHIC] [TIFF OMITTED] T2148.061
    
    [GRAPHIC] [TIFF OMITTED] T2148.062
    
    [GRAPHIC] [TIFF OMITTED] T2148.063
    
    [GRAPHIC] [TIFF OMITTED] T2148.064
    
    [GRAPHIC] [TIFF OMITTED] T2148.065
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 14, 2009

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. SKELTON

    Admiral Roughead. The lowest number of ships we have had in the 
last 10 years is 279 in 2007.
    The Navy baseline budget does not include allowances for unplanned, 
extensive repair work such as that required for USS HARTFORD and USS 
PORT ROYAL. This would be true in either a mission funded or Navy 
working capital fund environment. When unforeseen incidents occur that 
require extraordinary shipyard repair efforts, manpower resources are 
realigned to the highest priority work and if required, previously 
scheduled work is deferred. The Navy goes to great lengths to schedule 
the emergent work to minimize impacts to shipyard efficiency and 
overtime. [See page 11.]
    Admiral Roughead. We will retire seven ships in FY 2009:

    <bullet>  USS KITTY HAWK (CV63)

    <bullet>  USS TARAWA (LHA 1)

    <bullet>  USS JUNEAU (LPD 10)

    <bullet>  USS NASHVILLE (LPD 13)

    <bullet>  USNS CONCORD (T-AFS 5)

    <bullet>  USNS SATURN (T-AFS 10)

    <bullet>  USNS HAYES (T-AG 195) [See page 11.]

    Admiral Roughead. In the current Systems Development and 
Demonstration (SDD) phase of the JSF program, 19 aircraft will be 
built, 13 flight test articles and six static test articles. To date 
nine aircraft have been completed. Of the nine aircraft, three flight 
test articles are currently flying, three flight test articles are in 
the run station preparing for first flights, and three static test 
articles are testing in the labs. The remaining aircraft will be 
delivered through the remainder of this year and the first half of 
calendar year 2010 to begin flight and lab testing. The 19 SDD aircraft 
consist of multiple variants: seven short take-off and vertical landing 
variants for the Marine Corps, six conventional take-off variants for 
the Air Force, five carrier variants for the Navy, and one non-
production, representative conventional take-off variant. [See page 
12.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    Admiral Roughead. The FY 2009 Shipbuilding Plan, submitted with the 
President's 2009 Budget, is the Navy's current long-range shipbuilding 
plan. The FY 2009 plan provides a detailed program for the construction 
of combatant and support vessels for the Navy over the next 30 fiscal 
years and represents currently estimated levels of required annual 
funding and related procurement strategies.
    Title 10 USC 231 requires the Secretary of Defense to submit an 
Annual Long Range Plan for the Construction of Naval Vessels, the 
shipbuilding plan must reflect the U.S. National Security Strategy or 
the most recent Quadrennial Defense Review (QDR). The 2009 QDR and 
concurrent Nuclear Posture Review are underway now and due for 
submission with the FY 2011 budget. These efforts will likely have a 
substantive impact on the Navy's force structure requirements; 
therefore, the Navy and the Office of the Secretary of Defense decided 
to defer the FY 2010 shipbuilding plan and submit a revised plan 
concurrent with the President's FY 2011 budget. The FY 2010 President's 
Budget fully funds the construction of naval vessels requested for FY 
2010. [See page 19.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 14, 2009

=======================================================================

      
                    QUESTION SUBMITTED BY MR. SMITH

    Mr. Smith. The EP-3E ARIES II is the Navy's only land-based signals 
intelligence (SIGINT) reconnaissance aircraft. As you know, the Navy's 
fleet of EP-3 aircraft has been heavily engaged in support of 
operations in Bosnia, Korea, Iraq, and Afghanistan, and the planes are 
wearing out. I understand that the Navy has been reviewing options to 
replace the EP-3 fleet. With that in mind, what is the Navy's plan, 
including any acquisition timeline, for replacing these critical 
assets?
    Secretary Penn. EP-3 transition plan is scheduled to start in 2019 
and end in 2024. Special Structural Inspection-Kits (SSI-K) will be 
added to scheduled sustainment efforts and are planned for all 16 EP-3E 
aircraft. These sustainment efforts ensure 12 primary mission aircraft 
inventory (PMAI) through EP-X IOC (2021). EP-3 aircraft mission systems 
are being upgraded to a Multi-Intelligence configuration, which started 
in 2007.
    The Navy is committed to the EP-X program to recapitalize the EP-3 
ISR&T (Targeting) capability, which will incorporate Multi-
Intelligence, data fusion and cue-to-kill targeting capabilities.
    EP-X is a pre-Milestone (MS) A program that is awaiting a Material 
Development Decision (MDD), anticipated to occur in October 2009. The 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD, AT&L) on 18 Dec 2008 approved guidance for the conduct of an EP-X 
Analysis of Alternatives (AoA). The AoA results will guide development 
of a recommended material solution, acquisition strategy, and cost 
estimate leading to MS A. The AoA is scheduled to complete in the 3rd 
quarter FY 2010. Funding for the Technology Development and Engineering 
and Manufacturing Development phases of the program will be provided in 
POM-12. The Navy's anticipated EP-X timeline includes:

    <bullet>  MS A in FY 2011

    <bullet>  MS B in FY 2015

    <bullet>  MS C in FY 2019

    <bullet>  Initial Operational Capability in FY 2021

    <bullet>  Full Operational Capability in FY 2023

                                 ______
                                 
                 QUESTION SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. In the last several years, submarine accidents 
have led the Portsmouth Naval Shipyard to have to do unplanned and 
extensive repair work. Due to mission funding, the Shipyard is not 
allocated any extra funds to deal with such unanticipated repairs, and 
must take both workers and funds away from planned work. This impacts 
Shipyard efficiency, strains a limited budget, and can cause additional 
overtime. Given that unforeseen incidents will continue to occur, what 
plans does the Navy have to provide funds and manpower to the Shipyard 
to allow it to do this emergency repair work without reducing Shipyard 
efficiency and its budget for scheduled work?
    Admiral Roughead. The Navy baseline budget does not include 
allowances for unplanned, extensive repair work such as that required 
for USS HARTFORD and USS PORT ROYAL. This would be true in either a 
mission funded or Navy working capital fund environment. When 
unforeseen incidents occur that require extraordinary shipyard repair 
efforts, manpower resources are realigned to the highest priority work 
and if required, previously scheduled work is deferred. The Navy goes 
to great lengths to schedule the emergent work to minimize impacts to 
shipyard efficiency and overtime.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. Can you please elaborate on how the FY 10 budget 
assures that the Marines that are deploying to Afghanistan as part of 
the current ramp-up have the necessary equipment and facilities they 
need when they arrive there?
    General Conway. The Marine Corps' FY 10 budget continues to provide 
the necessary support to Marines deployed in Operation Iraqi Freedom 
and Operation Enduring Freedom. The budget provides continued support 
for training Marines in conventional and irregular warfare and provides 
the necessary equipment and facilities needed to conduct operations in 
Afghanistan.
    Training: The FY 10 budget continues support of advanced training 
programs such as Enhanced Mojave Viper which is designed to serve as 
the culminating mission rehearsal exercise (MRX) for all units that 
attend. The critical element of the EMV is that attending units are 
able to horizontally integrate with other elements of the Marine Air 
Ground Task Force (MAGTF). While the driving factor behind the 
development of EMV was Afghanistan, it also serves as a significant 
step forward in core competency training, as it reestablishes combined-
arms tactical integration of the elements of the MAGTF.
    Equipment: The Marine Corps will continue to rotate our forces in 
Afghanistan and fall in on equipment sets maintained in theater. Our 
force deployment and equipping strategy is no different in Iraq, and 
will be even more appropriate in Afghanistan. The 2d MEB's equipment 
set has been globally sourced from four different sources; 55% from new 
procurement, 27% from equipment already forward deployed in the Central 
Command Area of Responsibility, 14% from home station units, and 4% 
from in-stores at Marine Corps Logistics Command. The 2d MEB equipment 
set was built off of lessons learned in OIF/OEF based on 
counterinsurgency, and security and stability operations. It is heavy 
in armored motor transport and command and control type equipment, but 
light on the more traditional ``high end'' items such as tanks, 
amphibious assault vehicles, and artillery normally associated with 
Phase III (combat operations) type equipment set.
    Facilities: While the Army and Air Force provide the necessary 
facilities needed to support ground operations in Afghanistan, the 
Marine Corps' FY 10 baseline request continues to support new 
construction and replacement of existing facilities for the Marine 
Corps' increase in end strength. The requested funding will provide 
permanent barracks, mess facilities, operations centers, training 
ranges, Bachelor Enlisted Quarters (BEQs), and other supporting 
facilities on existing Marine Corps installations.
    Mr. Loebsack. What is the Marine Corps' long-term plan for MRAP 
vehicles? a. Will MRAPs become an official program of record and be 
moved out of the war funding budget? b. What is the Marine Corps' 
requirement for MRAP All-Terrain Vehicles?
    General Conway. a. Yes, MRAPs will become an official program of 
record and moved out of the war funding budget.
    The Marine Corps' enduring requirement for MRAP vehicles was 
presented to and approved by the senior leadership of the Marine Corps 
during July 2009. The approved course of action proposed that all MRAPs 
presently allocated to the Marine Corps and determined to be in an 
appropriate operational condition, will be retained and designated for 
one of three purposes:

    --  A small portion, 745 vehicles, will be maintained in the 
operating forces.

    --  An additional number of the remaining MRAPs, 733 vehicles, will 
be placed in prepositioned short-term storage (accessible within 30 
days worldwide). This would potentially place MRAP vehicles on Maritime 
Preposition Shipping, War Reserve, Albany, GA, Depot Maintenance Float 
Allowance and Norway.

    --  The remaining MRAP vehicles, 1,024 vehicles, will be placed in 
long-term storage (accessible within 90 days worldwide) at existing 
Marine Corps Depot locations, most likely Barstow, CA based on cost and 
climate.

    Location of 25 MRAP Ambulance variants will be determined by 
operational requirements.
    b. The Marine Corps and U.S. Army have also embarked on developing 
a MRAP All-Terrain Vehicle (MATV) which will be a more maneuverable 
off-road vehicle for use in Afghanistan and incorporates MRAP-like 
level protection. A six-month selection effort was just completed and 
the first order for vehicles was placed on contract with Oshkosh 
Corporation, Oshkosh, WI on 30 June 2009. The Marine Corps' current M-
ATV requirement is approximately 1,565 vehicles.
    Mr. Loebsack. Can you please detail the Marine Corps's efforts to 
reduce the weight of body armor systems? What are your thoughts about 
establishing a task force similar to the MRAP Task Force and 
Intelligence, Surveillance and Reconnaissance (ISR) Task Force to 
accelerate these efforts?
    General Conway. The Marine Corps is actively pursuing efforts to 
reduce body armor weight. Several recent load reduction efforts have 
positively affected the individual Marine operating in Afghanistan 
today. While the Marine Corps would be eager to collaborate in any 
effort to accelerate weight reduction, we believe the establishment of 
a task force is unnecessary. A significant reduction in the weight of 
body armor plates requires a technology breakthrough.

Current Efforts

    As part of our response to an urgent need from Marines operating in 
Afghanistan, Marine Corps Systems Command (MARCORSYSCOM) conducted the 
rapid acquisition of Scalable Plate Carriers (SPC). The SPC uses the 
same soft body armor and hard armor plates used in the Modular Tactical 
Vests (MTV), while reducing the area of coverage to improve mobility 
and reducing the load by approximately 8-10 lbs. The SPC illustrates a 
successful weight reduction in body armor provided to Marines in less 
than 90 days of the urgent request through the use of current products 
and technologies. MARCORSYSCOM developed the SPC as a complementary 
body armor product to the MTV. Today, Marines are issued both SPCs and 
MTVs prior to deploying to Afghanistan.
    Concurrently, on 10 July 09, the Marine Corps published MARADMIN 
415/09 which describes the Marine Corps Armor Protection Level (APL) 
concept. APL encourages a risk-based approach by enabling the Commander 
on the ground to choose options for the wear of vests and plate carrier 
body armor components alike.

Current Coordination and Collaboration to the Future

    With the Science & Technology community, the Marine Corps is 
exploring various new technologies and integration concepts to reduce 
the weight of body armor systems in an effort to increase mobility and 
survivability. Marine Corps Research and Development funding efforts 
are designed to yield material solutions that can reduce the weight and 
volume of equipment being used today while also increasing performance. 
Inclusive in these studies are projects being sponsored under the 
Department of Defense's Small Business Innovative Research (SBIR) 
program, as well as Marine Corps funded projects through the Naval 
Research Labs (NRL), and the Office of Naval Research (ONR).
    In addition, we are collaborating with our industry partners, 
academia, sister Services, and other Departments and Agencies. Several 
forums facilitate Army-Marine Corps cooperation, including the Joint 
Clothing and Textiles Governance Board, the Army-Marine Corps Board, 
and the Cross-Service Warfighter Equipment Board. The Marine Corps and 
Navy are also collaborating more closely than ever. The Naval Logistics 
Integration initiative (NLI) will ensure that the Navy is able to take 
advantage of technological developments on the part of the Marines, 
while having their own requirements fulfilled.

                                  <all>

</pre></body></html>
